<html>
<title> - EXAMINING THE FEDERAL AVIATION ADMINISTRATION'S AGE 60 RULE</title>
<body><pre>[Senate Hearing 109-1102]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1102
 
      EXAMINING THE FEDERAL AVIATION ADMINISTRATION'S AGE 60 RULE

=======================================================================



                                HEARING

                               before the

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
63-516                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                        SUBCOMMITTEE ON AVIATION

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
JOHN McCAIN, Arizona                     Virginia, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          BYRON L. DORGAN, North Dakota
OLYMPIA J. SNOWE, Maine              BARBARA BOXER, California
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
JOHN ENSIGN, Nevada                  FRANK R. LAUTENBERG, New Jersey
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        E. BENJAMIN NELSON, Nebraska
JIM DeMINT, South Carolina           MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 19, 2005....................................     1
Statement of Senator Burns.......................................     1
Statement of Senator Pryor.......................................    15
Statement of Senator Stevens.....................................     2

                               Witnesses

Eichelkraut, Captain Joseph ``Ike'', President, Southwest 
  Airlines Pilots' Association...................................    23
    Prepared statement...........................................    25
Gibbons, Hon. Jim, U.S. Representative, 2nd District, Nevada.....     2
Hunter, Captain Ralph, President, Allied Pilots Association......    30
    Prepared statement...........................................    32
Inhofe, Hon. James M., U.S. Senator from Oklahoma................     3
Jordan, Jon L., M.D., J.D., Federal Air Surgeon, Office of 
  Aerospace Medicine, Federal Aviation Administration............     6
    Prepared statement...........................................     8
Rayman, Russell B., M.D., Executive Director, Aerospace Medical 
  Association....................................................    10
Spain, Captain Al, Senior Vice President, Operations, JetBlue 
  Airways Corporation............................................    33
    Prepared statement...........................................    35
Woerth, Captain Duane E., President, Air Line Pilots Association, 
  International (ALPA)...........................................    18
    Prepared statement...........................................    21

                                Appendix

AARP, prepared statement.........................................    51
Airline Pilots Against Age Discrimination (APAAD), prepared 
  statement......................................................    45
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    45
Chapman, Thomas B., Legislative Counsel, Government Affairs, 
  Southwest Airlines Co., letter with attachment, dated July 27, 
  2005, to Hon. Conrad Burns.....................................    47
International Brotherhood of Teamsters, Airline Division, 
  prepared statement.............................................    52
Mikelsons, George, Chairman, President and Chief Executive 
  Officer, ATA Holdings Corp., letter, dated July 19, 2005, to 
  Hon. Conrad Burns..............................................    61
Response to Written Questions Submitted by Hon. Gordon H. Smith 
  to:
    Captain Joseph ``Ike'' Eichelkraut...........................    59
    Captain Ralph Hunter.........................................    57
    Captain Al Spain.............................................    60
    Captain Duane E. Woerth......................................    58
Yetman, Bert M., President, Professional Pilots Federation, 
  prepared statement.............................................    50


      EXAMINING THE FEDERAL AVIATION ADMINISTRATION'S AGE 60 RULE

                              ----------                              


                         TUESDAY, JULY 19, 2005

                               U.S. Senate,
                          Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:30 p.m. in 
room SR-253, Russell Senate Office Building. Hon. Conrad Burns, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. We'll call the Committee to order, thank you 
for coming today and thank you for joining us, and I welcome 
the witnesses, I would hope that Senator Inhofe is on his way, 
somewhere, if not, we'll let him make his statement when he 
gets here.
    We're conducting this hearing on the controversial FAA Age 
60 Rule. It's our intention to re-visit this issue because of 
substantial changes in the aviation industry and because of 
financial struggles many of the carriers are going through. 
Those struggles have adversely affected many of our pilots. 
With tensions posing significant problems, it might be time to 
take a serious look at altering that Rule.
    Since 1960, Federal regulations have specified that 
individuals age 60 and older may not serve as airline pilots on 
any commercial flight operations. The FAA adopted what is 
commonly referred to as the ``Age 60 Rule'' in 1959, because of 
concerns that a hazard to safety was presented by aging pilots 
in air carrier operations.
    Over the years there have been several attempts to 
challenge the Rule, but to date no pilot has ever been granted 
an exemption, and no Federal court has ruled in favor of 
changing the Rule. Based on this history, it is evident that 
any change or modification to the Rule will likely require 
Congressional action.
    The Subcommittee is very much aware of the emotion attached 
to the issue for many pilots. In light of the current financial 
condition of the airlines and the continuing pension problems, 
I think it is important that we revisit this issue.
    On today's panel we will hear medical testimony along with 
varied pilots' opinions and experience with the Rule. As with 
any aviation issue, safety is of the utmost concern, it is with 
this Senator anyway, but safety should also be based on facts, 
and not arbitrary or subjective dynamics. I welcome the panels 
and look forward to the testimony.
    Congressman Gibbons from Nevada, thank you very much for 
coming, and do you have an opening statement, Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. I think I have a conflict of interest.
    Senator Burns. No comment. That's how you stay in good 
stead with your Chairman.
    Congressman Gibbons, I look forward to your testimony, 
thank you for coming today, by the way.

      STATEMENT OF HON. JIM GIBBONS, U.S. REPRESENTATIVE, 
                      2ND DISTRICT, NEVADA

    Mr. Gibbons. Thank you, Senator Burns, and Senator Stevens, 
thank you for allowing me to be here to testify on an issue 
that is very near and dear to my heart, and personally to 
millions of current and future commercial airline pilots.
    Mr. Chairman, I have worked as a commercial airline pilot 
for 17 years, and recently I just reached the age of 60. While 
this bill will not, and nor is it intended, to benefit me 
personally, I am outraged by the blatant age discrimination 
that continues to be perpetuated by this FAA Rule. Both the 
Equal Employment Opportunity Commission and the AARP agree that 
the Age 60 Rule is a biased, unfair regulation that effectively 
deprives the flying public of some of the best pilots that our 
country has to offer.
    Senator Inhofe and I have worked for several Congresses to 
pass legislation that will extend the mandatory pilot 
retirement age beyond 60. In the current Congress, our 
legislation would repeal that rule and allow pilots to remain 
in the cockpit until they reach the age at which they can 
receive their full Social Security retirement benefits. This 
comes down to a basic fairness issue.
    Current FAA regulations require that commercial airline 
pilots leave the cockpit 5 years before most are even eligible 
to receive Social Security benefits. Now, these pilots are only 
asking that they be able to continue to work in the field that 
they have been trained for, and worked in their whole lives, 
until they can get their Social Security benefits. I certainly 
do not think that this is too much to ask. Especially since 
there is absolutely no proof to show that a pilot is any less 
capable at the age of 59 years, 364 days, than a pilot who is 
60 years old.
    The fact is, several studies have shown that older pilots 
have better safety records than their younger colleagues, and 
that pilots 60 years or older, tend to be healthier than their 
cohorts in the population at large. In addition, 65 year old 
pilots would still have to go through the same rigorous testing 
and training that 25 year old pilots do. Now this includes 
flight physicals twice a year, and EKG heart tests every year. 
The Federal laws were not intended to micromanage what is the 
responsibility of the airlines themselves. Unsafe pilots must 
be detected and relieved of duty by the airline, no matter what 
age, and safe pilots should be allowed to continue to fly, 
period. That's the job of airlines.
    Historically speaking, let's dispel the myth, right now, 
that the Age 60 Rule was created to improve airline safety--it 
wasn't. The FAA Age 60 Rule is an ancient relic of a bygone era 
in which one airline in 1959, seeking relief from a labor 
dispute, curried political favor and forced the implementation 
of a rule which served to shove its older pilots out the door, 
period.
    It's time for this rule to be overturned, and for the 
United States to provide the same opportunities as most 
industrialized nations do. We can look overseas, Mr. Chairman, 
and in the sky right above this very building, for proof that 
the Rule is outdated and serves no safety purpose whatsoever.
    Over 50 countries allow their commercial airline pilots to 
fly past age 60, including Canada, Australia, Israel, Japan, 
and 31 European countries as well. Furthermore, the FAA allows 
these foreign pilots to fly into, and over the United States. 
On top of that, the FAA's own pilots are allowed to fly past 
their 60th birthday. If foreign and FAA pilots are good enough 
to fly the friendly skies past their 60th birthday, then our 
own commercial pilots should be able to do so as well.
    In closing, I want to reiterate that this legislation, H.R. 
65 and Senator Inhofe's legislative bill S. 65, do not in any 
way require pilots to work past age 60 if they don't want. Nor 
does it require airlines to rehire any pilot that has had to 
retire already due to the Rule. Our bill simply brings fairness 
to our pilots by closing the gap between their forced 
retirement and their ability to collect Social Security. In a 
time of failing pensions and soaring passenger numbers, we only 
want to allow our pilots to provide for their families and to 
retire with dignity.
    Again, I want to thank you, Mr. Chairman and the Ranking 
Member as well, for allowing me to speak to your Committee on 
this very important bill, it's my hope that we can repeal this 
discriminatory age rule as soon as possible. Thank you, Mr. 
Chairman.
    Senator Burns. Thank you, Congressman, we appreciate----
    [Applause.]
    Senator Burns. No, no, no, no, no. We don't allow outbursts 
here at all, no matter what your leanings may be. But it's nice 
to have you here, how's that. Your faces here tell us much more 
than the noise that you make.
    Unfortunately, Senator Rockefeller couldn't make it today, 
he had some family business to take care of that was 
unavoidable. He will submit a statement and then we'll go on 
with the hearing, and I assume he will have some questions for 
the witnesses today, and if he does, we will handle that in due 
time.
    Senator Inhofe, nice to have you.

              STATEMENT OF HON. JAMES M. INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Burns. You're welcome.
    Senator Inhofe. Nice to be here with you, and I, let me, 
first of all, thank both of you, both Chairman Stevens, and 
Chairman Burns for being the original co-sponsors of this 
legislation.
    I was crossing things off as Jim Gibbons was making his 
statement, so I've dramatically shortened what I was going to 
say, but I think that, you know, if you look at it, my 
preference would not just be 65 years old. I know people who 
are old at age 50, and I know people who are good pilots well 
past 70, I happen to be 70 years old today, I mean, now--not 
today--I've been 70 years old for quite a while, and I, you 
know, if you are taking the very stringent proficiency tests 
and medical tests, there's no reason you can't continue to fly, 
it is purely arbitrary, if you look at the different 
organizations, the ICAO, I don't know whether you talked about 
that or not, but the International Civil Aviation Organization 
stated in a recent report that there is no medical evidence to 
support an age restriction of the amount here. Only 25 
countries have an age limit of 60 or less, the United States 
and France are the only developed nations with limits this low, 
and I don't think either of the Chairmen up there would like 
that distinction of being the only country joining France in 
their policies.
    [Laughter.]
    Senator Inhofe. The news is full of reports of airline 
pension funds being terminated and turned over to the Pension 
Benefit Guaranty Corporation, I think the legislation 
introduced by Congressman Gibbons and me will help alleviate 
this burden on taxpayers and the airlines.
    I want to also say that there are some organizations like 
the AARP, you'd expect them to be supportive of this, they are 
supportive of this, and they had quite a statement to make on 
it. The--if you look back and see how this came about in the 
first place, and why the ALPA right now is in support of it.
    I've talked to a number of the officers in ALPA, they're 
good people, they're my friends--I make it a point to be 
friendly with the people I work with, and they are good. 
Although, if you stop and think about the decision that they 
made in opposing extending it to age 65--it was a political 
decision. I mean, there are enough people who want the vertical 
mobility that would bring them up to an age where they could 
have a longer career. Now, I think as I recall, the margin was 
very thin in terms of the pilots' unions in their opposition to 
this, there are many pilots that are very much for it.
    I guess the only other thing I would say is, when you look 
at what has happened in the past, this Age 60 Rule came in 
1959, I believe, wasn't it, Jim? At that time, the life 
expectancy was 8 years younger than it is today. And if you're 
going to go by that, and you go by every rule we have with 
Social Security or any other program that's year to age--they 
increase that age as time goes on, they haven't increased this 
in almost 50 years.
    And I would at last say, when I was involved in a rally 
with Congressman Gibbons, I felt--you know, after all, they 
have a lot more hours than he does--I found out he's got 
19,000? Twenty two thousand, and I only have 11,000, so he has 
twice as many hours as I do, but I've been flying, probably, a 
few more years.
    And I would say this----
    Mr. Gibbons. I wasn't flying without a prop, by the way.
    Senator Inhofe. Well, and I'll tell that story, then, I 
think that's very significant.
    At age 65 I was flying a twin--no, I was flying a single-
engine plane--down to Tinker Air Force Base when, not just the 
propeller, Chairman Burns, came off, but the fly wheel and a 
whole bunch of stuff. This was a four-passenger, single engine 
airplane. Now, for those in the audience, and you folks 
certainly are so knowledgeable in this, you realize if you take 
300 pounds off of a single-engine airplane, and you're alone in 
the airplane, that does something to the airplane.
    First of all, I need to determine where the new stalling 
speed was on that airplane. I found out it was not at 48 knots, 
it was 120 knots. There's the bad news, the good news is, you 
take the front end, a prop off of an airplane, you can coast a 
long ways. So I did, and I was able to make it back to an 
airport and make a landing--it wasn't pretty, but I'm here 
today.
    Now, I was 65 years old when that happened. My kids right 
now are good pilots, I was their instructor, all four of them, 
but I think with the lack of experience, I'm not sure that they 
would have made it through an incident like that. There's 
something good that can be said about experience. I had 
occasion to fly an airplane around the world when I was over 
the legal age that we have today for commercial pilots, and a 
lot of things happened on that trip that I had to draw upon a 
great deal of experience, so I just think that the arbitrary 
age doesn't work, we have a lot of people who want to continue 
to work, the three of us are working, the four of us are 
working past that age, and I think that we should allow others 
to pursue their profession in the same way. They're good 
pilots, they're safe pilots and they've passed their tests.
    Senator Burns. Congressman Gibbons, you mentioned countries 
that allow over-60 pilots. Do they have a mandatory cap at some 
point?
    Mr. Gibbons. You know, I'm not sure.
    Senator Burns. I'm just wondering.
    Mr. Gibbons. I don't know, I couldn't answer that and tell 
you with certainty, Senator, because I have not looked at that 
myself.
    Senator Burns. OK, all right. Mighty fine. Do you have 
anything for this panel?
    You're invited to sit up here and join us during this 
hearing if you don't have other things to do. We have an 
interesting line-up for our first panel will be Dr. Jon Jordan, 
M.D. for Federal Flight Surgeon, Office of Aerospace Medicine, 
Federal Aviation Administration up next, so you might want to 
stick around, so you're invited to join us, and thank you for 
your testimony today.
    Mr. Gibbons. Mr. Chairman, I appreciate that.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Stevens. Not you Jim, you need to go pass that 
Highway bill.
    Mr. Gibbons. That's what I'm going to do.
    Senator Burns.You might need something to land on. Anyway, 
here we go, and we also have Dr. Russell Rayman. Dr. Rayman is 
Executive Director, Aerospace Medical Association, with us 
today, and we look forward to hearing their testimony. Dr. 
Jordan and--that seat sets down a long time, doesn't it? Thank 
you, gentlemen, for coming today, and we're looking forward to 
your testimony, Dr. Jordan.

      STATEMENT OF JON L. JORDAN, M.D., J.D., FEDERAL AIR 
        SURGEON, OFFICE OF AEROSPACE MEDICINE, FEDERAL 
                    AVIATION ADMINISTRATION

    Dr. Jordan. Thank you very much, Mr. Chairman, members of 
the Subcommittee. I'm Jon L. Jordan, I'm the Federal Air 
Surgeon for the Federal Aviation Administration. And I would 
like to thank you for the opportunity to appear before you 
today to discuss the FAA's Age 60 Rule. I am accompanied today 
by my colleague, Jim Ballough, who is the Director of FAA's 
Flight Standard Service.
    As you know, the Age 60 Rule provides that a pilot may not 
engage in what are known as Part 121 operations if the pilot 
has reached his or her 60th birthday. The Rule means that a 
pilot who reaches age 60 must leave Part 121 operations, but it 
does not mean that he or she can no longer play an important 
role in aviation. Many pilots continue to work for Part 121 
airlines in the screening, recruitment, and training of pilot 
applicants, service flight engineers, or fly in non-Part 121 
operations or become flight instructors. Or, fortunately for 
us, the FAA, work as safety inspectors.
    Since its adoption in 1959, the FAA has reviewed the Age 60 
Rule several times to determine whether new and sufficient 
evidence exists to warrant a reconsideration of the regulation. 
In fact, our most recent empirical studies completed in 2004 
shows some of the results, that there appears to be a 
relationship between pilot age and accident rate. The 
consistency of these findings across three recent empirical 
studies, suggests that changes to the Age 60 Rule should be 
approached cautiously.
    I must emphasize that before making any change to a safety 
rule, the FAA must be satisfied that the regulation will 
maintain or raise the current level of safety. What is clear to 
us from reviewing public comments and relevant literature 
concerning the Age 60 Rule is that there is no single right 
answer. What is also clear is that the question for the FAA is 
one of public safety, and determining acceptable risk. At this 
time the FAA cannot be assured that changing the Age 60 Rule 
will maintain or raise the level of safety.
    At some age, every individual reaches a level of increased 
infirmity, leading to decreased reliability. That age will vary 
from person to person, but cannot yet be predicted in a 
specific individual. While science does not absolutely dictate 
the age of 60 for commercial pilot retirement, that age is 
within the age range during which sharp increases in disease, 
mortality, and morbidity occur.
    Clearly, there is an anatomic, physiological, and cognitive 
decline associated with aging, albeit variable in severity and 
onset among individuals. There is no absolute, scientific 
formula that may be readily applied. But it's indisputable 
that, as pilots, as people age, they experience more illnesses 
and disorders, and suffer more cognitive decline. 
Cardiovascular disease rises with age steeply, beginning 
between ages 55 and 65, and while mortality has dropped since 
1960, cardiovascular disease remains the most frequent cause of 
death in pilots and the general population. With these 
increased incidents of cardiovascular disease in the older 
population, the risk for unexpected events that could be a 
threat to safety of flight is increased. Cardiac events, such 
as heart attacks and heart failure, for example, during flight, 
have continued to occur in low, but fairly consistent numbers 
over the years, and have caused general aviation accidents.
    Other health conditions are known to increase in incidents, 
or to become more complicated with aging. Many present greater 
difficulties of detection and risk assessment than do 
cardiovascular disease. Among these are cerebrovascular 
disease, malignancies, endocrine dysfunction, neurological 
disorder, psychiatric disorders, including depression, a 
decline in sensory and motor capabilities. There has been an 
increasing awareness of the more subtle, adverse conditions 
affecting performance, such as those related to cognitive 
functioning.
    The Age 60 Rule has served well as a regulatory limit in 
the U.S. In our view, it remains the best determination that 
can be made of a time when a general decline in health-related 
functions and overall cognitive capabilities has reached a 
level where decrements in a pilot's performance may jeopardize 
safety. Repeated reviews and studies have not provided 
sufficient information that would address our concerns about 
changing the Rule. In addition, several U.S. Courts of Appeals 
have reviewed the Age 60 Rule, and studies related to the Rule. 
Uniformly, these courts have denied petitioner's challenges. 
Also, the FAA has invited the public to provide comments on the 
viability of the Age 60 Rule. The most recent comment period 
was opened in September of 2002, in relation to a petition for 
exemption to the Rule filed by a coalition of U.S. pilots 
approaching age 60.
    Nearly 7,000 comments were submitted during the month-long 
open comment period. Overwhelmingly, the comments favored 
retaining the current Age 60 Rule. They cited safety and 
medical issues most often as reasons for retention of the 
current rule.
    Mr. Chairman, the FAA develops regulations in the context 
of what is best for public safety. The FAA's primary mission is 
ensuring the safety of the National Airspace System. The FAA 
establishes through our regulations, basic safety standards for 
aircraft and crew members that would ensure the safety of our 
traveling public. Modifying the longstanding baseline of age 60 
in the U.S., requires that the public be shown how such 
modification would maintain an equivalent level of safety. None 
of the studies completed since implementation of the Rule 
provide satisfactory data that conclusively supports changing 
the Rule. Also, I should note that no medical protocols exist 
to reliably predict when or whether an over-age 60 pilot might 
experience a medical event that will jeopardize aviation 
safety. In some, with inconclusive data, and no practical 
experience with pilots above age 60, the FAA does not agree at 
this time with efforts to modify the current age limit for 
commercial airline pilots. That concludes my prepared remarks, 
my colleague and I will be happy to answer any questions you 
may have.
    Senator Burns. Thank you very much, Dr. Jordan, and I might 
add that your complete statement, or any other information that 
you want in the record, we'll be happy to include those 
documents.
    [The prepared statement of Dr. Jordan follows:]

 Prepared Statement of Jon L. Jordan, M.D., J.D., Federal Air Surgeon, 
     Office of Aerospace Medicine, Federal Aviation Administration
    Mr. Chairman and members of the Subcommittee:
    I would like to thank you for the opportunity to appear before you 
today to discuss the Federal Aviation Administration's (FAA) Age 60 
rule, which provides that a pilot may not engage in what are known as 
Part 121 operations if the pilot has reached his 60th birthday. Part 
121 covers operations of large commercial passenger aircraft, smaller 
propeller aircraft with 10 or more passenger seats, and common carriage 
operations of all-cargo aircraft with a payload capacity of 7,500 
pounds. I am accompanied today by my colleague, Jim Ballough, Director 
of FAA's Flight Standards Service.
    The Age 60 rule represents the FAA's best determination of the time 
when a general decline in health-related functions and overall 
cognitive and performance capabilities may begin and reach a level 
where a pilot's judgment and physical ability may begin to decline, and 
therefore jeopardize safety. Our rule means that a pilot who reaches 
age 60 must leave Part 121 operations, but it does not mean that he or 
she can no longer play an important role in aviation. Many pilots 
continue to work for Part 121 airlines in the screening, recruitment, 
and training of pilot applicants, serve as flight engineers, or fly in 
non-Part 121 operations, or become flight instructors, or, fortunately 
for us, work as safety inspectors for the FAA.
    Since its adoption in 1959, the FAA has reviewed the Age 60 rule 
several times to determine whether new and sufficient evidence exists 
to warrant a reconsideration of the regulation. The FAA has also 
successfully defended the Rule in several administrative and judicial 
challenges.
    FAA has conducted five studies on the relationship of pilot age to 
accidents between 1999 and 2004. The first four studies were conducted 
at the direction of the Senate Appropriations Committee, which 
requested in 1999 that the FAA study and provide data regarding 
relative accident rates based on pilot age. The FAA's Civil Aerospace 
Medical Institute (CAMI) conducted a four-part study. The four studies 
were as follows: (1) an annotated bibliography of the scientific 
literature (1990-1999); (2) a re-analysis of the Chicago Tribune study 
data (1999) relating pilot age and accident rates; (3) an empirical 
analysis of accident rates by pilot age for professional pilots holding 
Air Transport Pilot (ATP) and Class 1 medical certificates between 1988 
and 1997; and (4) an empirical analysis of accident rates by pilot age 
for professional pilots holding ATP or Commercial Pilot and Class 1 or 
Class 2 medical certificates between 1988 and 1997.
    Certain aspects of the analytic methodology used in the third and 
fourth studies were criticized in the open scientific literature. In 
response, the first author for those studies, Dr. Dana Broach of CAMI, 
re-analyzed the accident rate data. That study was published in 2004. 
The 2004 study used more restrictive criteria to select which accidents 
to include in the analysis than were used in the previous studies. 
Taken together, the criteria resulted in an ``apples-to-apples'' 
comparison of accident rates for pilots age 60-63, and younger pilots 
in that the accident and non-accident pilots had the same credentials, 
worked for the same employers, and operated complex, multi-engine 
commuter or larger aircraft now covered by Part 121. As in the previous 
studies, the data were aggregated by age group (in five-year 
increments) and year, and analyzed with the same statistical technique.
    The results of the 2004 study were similar to those reported in the 
third and fourth empirical studies previously reported to Congress. 
Overall, accident rate increased with pilot age. The patterns of 
findings across the three empirical studies are similar--there appears 
to be a relationship between pilot age and accident rate. The 
consistency of this finding across the three empirical studies suggests 
that changes to the Age 60 rule should be approached cautiously.
    I must emphasize that before making any change to a safety rule, 
the FAA must be satisfied that the regulation will maintain or raise 
the current level of safety. What is clear to us from reviewing public 
comments and relevant literature concerning the Age 60 rule is that 
there is no single ``right answer.'' What is also clear is that the 
question for the FAA is one of public safety and determining acceptable 
risk. At this time, the FAA cannot be assured that changing the Age 60 
rule will maintain or raise the level of safety.
    At some age, every individual reaches a level of increased 
infirmity leading to decreased reliability. That age will vary from 
person to person but cannot yet be predicted in a specific individual. 
While science does not absolutely dictate the age of 60 for commercial 
passenger pilot retirement, that age is within the age range during 
which sharp increases in disease mortality and morbidity occur. 
Clearly, there is a progressive anatomic, physiological, and cognitive 
decline associated with aging, albeit variable in severity and onset 
among individuals. There is no absolute, scientific formula that may be 
readily applied.
    It is indisputable that, as people age, they experience more 
illnesses and disorders, and suffer more cognitive decline. 
Cardiovascular disease rises with age, steeply, beginning between ages 
55 and 65, and, though mortality has dropped since 1960, cardiovascular 
disease remains the most frequent cause of death in pilots and the 
general population. With this increased incidence of cardiovascular 
disease in the older population, the risk for unexpected events that 
could be a threat to safety of flight is increased. Cardiac events 
(e.g., heart attacks, heart failure) during flight have continued to 
occur in low, but fairly consistent numbers over the years, and have 
caused general aviation accidents.
    Other health conditions are known to increase in incidence or to 
become more complicated with aging. Many present greater difficulties 
of detection and risk assessment than do cardiovascular disease. Among 
these are cerebrovascular disease; malignancies; endocrine dysfunction; 
neurological disorders; psychiatric disorders, including depression; 
and decline in sensory and motor capabilities. There has been an 
increasing awareness of the more subtle adverse conditions affecting 
performance, such as those related to cognitive functioning.
    The ``Age 60 rule'' has served well as a regulatory limit in the 
United States. It remains the best determination that can be made of 
the time when a general decline in health-related functions and overall 
cognitive capabilities has reached a level where decrements in a 
pilot's performance may jeopardize safety. The ``Age 60 rule'' has been 
repeatedly reviewed to determine whether new and sufficient evidence 
exists to warrant a reconsideration of the regulation. Studies 
conducted to date do not present sufficient information that would 
address concerns about negatively impacting the current level of safety 
by changing the Rule.
    The FAA has invited the public to provide comments on the viability 
of the ``Age 60 rule.'' The most recent comment period was opened in 
September 2002, in relation to a petition for exemption to the Rule 
filed by a coalition of U.S. pilots approaching age 60. Nearly 7,000 
comments were submitted during the month-long open comment period. 
Overwhelmingly, the comments favored retaining the current ``Age 60 
rule.'' They cited safety and medical issues most often as reasons for 
retention of the current rule.
    Several U.S. courts of appeals have reviewed the ``Age 60 rule,'' 
and studies related to the Rule. Uniformly, these courts have denied 
petitioners' requests for relief from the Rule. In September 2004, the 
U.S. Court of Appeals for the District of Columbia Circuit refused to 
review FAA's denial of a petition for exemptions from the Rule. In May 
2005, the U.S. Supreme Court refused to hear arguments on the same 
matter.
    In recent years, several bills to revise the age limit for airliner 
pilots have been introduced. In February 2001, a bill to modify the 
``Age 60 rule'' by increasing the age limit to age 65, was referred to 
the House Subcommittee on Aviation. In March 2001, a bill to modify the 
``Age 60 rule'' to age 63 was favorably reported by this committee. 
Neither bill was ultimately enacted. Most recently, legislation was 
proposed earlier this year that would tie an age limit for air carrier 
pilots to Social Security retirement-age eligibility.
    Modifying the long-standing baseline of age 60 in the U.S. requires 
that the public be shown how such modification would maintain an 
equivalent level of safety. The ``Age 60 rule'' is a long-standing 
operational rule that pre-dates subsequent studies completed over the 
years. None of the studies completed since implementation of the Rule 
provide satisfactory data that conclusively supports changing the Rule. 
No protocols exist to reliably predict when or whether an over-age-60 
pilot might experience a medical event that could jeopardize aviation 
safety. With inconclusive data and no practical experience with pilots 
above age 60, the FAA does not agree, at this time, to modify the 
current age limit for airliner pilots.
    Mr. Chairman, the FAA will develop regulations in the context of 
what is best for public safety. The FAA's primary mission is ensuring 
the safety of the National Airspace System. We work hard to manage a 
growth oriented aviation system--and the constraints on the system that 
growth imposes--in the most efficient and safe way possible. The FAA 
establishes, through our regulations, basic safety standards for 
aircraft and crewmembers that will ensure the safety of our traveling 
public. We construct our regulations very carefully, taking into 
account as many factors as we can, but ultimately, always making the 
decision that will best enhance aviation safety. While economic factors 
are certainly a part of that calculation, I am sure the Committee and 
our colleagues in industry would agree that safety must be the top 
priority.
    That concludes my prepared remarks. I would be happy to answer any 
questions the Committee may have.

    Senator Burns. Dr. Rayman?

   STATEMENT OF RUSSELL B. RAYMAN, M.D., EXECUTIVE DIRECTOR, 
                 AEROSPACE MEDICAL ASSOCIATION

    Dr. Rayman. Thank you, Mr. Chairman.
    The Aerospace Medical Association appreciates the 
opportunity to submit this statement to the U.S. Senate 
Committee on Commerce, Science, and Transportation, Aviation 
Subcommittee on the important issue of the Age 60 Rule for air 
transport pilots.
    I am Dr. Russell B. Rayman, Executive Director of the 
Aerospace Medical Association, representing approximately 3,100 
physicians, scientists, and flight nurses engaged in the 
practice of aerospace medicine, or related research.
    The Age 60 Rule implemented by the Federal Aviation 
Administration in 1959, does not allow persons engaged in 
operations conducted under Part 121 of the Federal Aviation 
Regulations to serve as a pilot or co-pilot on reaching their 
60th birthday. The rule was implemented under the premise that 
the risk of incapacitation, due to medical causes after 60 
years of age, was unacceptably high.
    Is there evidence that this is true for air transport 
pilots? And is there evidence that aging causes a significant 
performance decrement in the cockpit? Unfortunately, there is 
no clear answer to either of these questions. The reason being, 
that there are no studies of air transport pilots who are 
beyond 60 years of age, simply because none have ever been 
certified by the FAA.
    To answer these questions with reasonable certitude, it 
would be necessary to study a cohort of air transport pilots 
who are over age 60 and to compare them with a cohort of air 
transport pilots below age 60. Since this cannot be done today, 
the only alternative is to study cohorts of general aviation 
and commercial pilots, both categories having no age limits. 
And, indeed, a number of such studies have been accomplished 
and published in the literature. However, the conclusions of 
these studies are vexing in their inconsistencies and 
contradictions. Hence, they do not provide convincing evidence 
to support, or refute, the Age 60 Rule.
    In any event, the validity of these studies comes into 
question if we attempt to extrapolate the findings derived from 
general aviation and commercial pilots to air transport pilots, 
because of significant differences in aircraft and operations. 
This represents a significant flaw.
    We believe, the Aerospace Medical Association, believes 
that some pilots beyond age 60 could continue to fly without an 
added risk to flying safety. The challenge is to determine 
which ones could be safely certified and which ones should be 
retired. To resolve this dichotomy, studies would have to be 
designed to determine if, and what, medical tests might be 
added to the current FAA flight medical examination as a means 
of monitoring the health of the older pilot. Additional studies 
would also be needed to determine how older pilots might be 
tested for significant performance decrement in the cockpit. 
Such a study would be daunting in terms of scientific design 
and costs, and most likely would take years to accomplish. In 
the meanwhile, we would suggest that selected pilots be 
certified to an arbitrary age beyond age 60, and closely 
monitored.
    Although medical sudden incapacitation is always a 
possibility--and I might add, at any age--we believe there's a 
vanishingly small risk. Even if there were such an occurrence, 
there is always a second pilot in the cockpit. It might also be 
added that there has never been a U.S. air carrier accident due 
to medical causes. And finally, there are about 30 countries, 
and that number--I might add--is probably low, that permit air 
transport pilots to fly beyond age 60, and to our knowledge, 
there has been no adverse affect upon flying safety.
    In conclusion, on review of the existing evidence, the 
Aerospace Medical Association concludes there is insufficient 
medical evidence to support restriction of pilot certification 
based on age alone. Although studies could be designed to 
determine which pilots could be certified to safely fly beyond 
age 60, they would be difficult to design, and would be costly. 
In the meanwhile, we would recommend that selected pilots be 
certified to fly beyond age 60, and closely monitored.
    Thank you, sir.
    Senator Burns. Thank you. Dr. Jordan, we've made 
significant gains both medically and technologically over the 
last few years, I was just looking at some figures the other 
day of just 100 years ago, life expectancy was 47 years old. 
And, of course, that has steadily increased, I think, ever 
since, let's say, World War I. And there's a growing trend 
among foreign aviation authorities, of course, and we heard the 
testimony from Representative Gibbons that they fly over the 
age of 60, and I'm wondering, have we looked at their records 
and made any comparisons? We know that over 60 will not, maybe 
it will not increase our level of safety, but does it decrease 
according to European records, or those other countries, that 
allow pilots to fly over 60 years old?
    Dr. Jordan. Sir, I don't know of any studies that have been 
conducted using the data that might have been developed by the 
foreign carriers that do permit pilots to fly over age 60, I 
think it's mainly anecdotal and observational in nature, and 
not specific. It won't really provide a scientific basis, I 
think, for concluding that allowing pilots to fly over age 60 
is appropriate.
    Senator Burns. Does the FAA grant waivers to pilots of 
foreign carriers who are over 60?
    Dr. Jordan. Yes, that's correct.
    Senator Burns. If so, why do you accommodate foreign 
pilots, but the FAA has never granted an exemption to a U.S. 
pilot?
    Dr. Jordan. It's a matter of international concern, and 
international law, sir. And our current process in terms of 
dealing with pilots flying into the U.S. who are over age 60, 
is that according to ICAO rules, a pilot-in-command must be 
under age 60, but the first officer, for example, can be over 
age 60, or age 65. Because we follow ICAO rules, we do not 
permit the pilot-in-command to fly over age 60, but we do 
permit the first officer to fly over age 60. The first officer 
would not be in accordance with our rules.
    Senator Burns. Senator Stevens, you have a question?
    Senator Stevens. I'm a little disturbed by that last 
comment, I didn't understand, Dr. Jordan--you let the first 
pilot come in if he's over 65, but you don't let a co-pilot 
come in if he's over 65?
    Dr. Jordan. Well, the current ICAO rule provides that the 
pilot-in-command must be under age 60. It's a recommended 
practice that the first officer be under age 60, and because 
it's a recommended practice, the Agency does permit pilots to 
come into the country who are over age 60, but the pilot-in-
command has to be under age 60, it's enforced by the Agency.
    Senator Stevens. You do the same thing for Britain?
    Dr. Jordan. Yes, sir.
    Senator Stevens. Is there any country that has an age limit 
that you do not accept?
    Dr. Jordan. Would you repeat that, Senator?
    Senator Stevens. Is there any country that has an age 
limit, I take it would be over 65, that you do not accept? Are 
there any in civil aviation that are over 65?
    Dr. Jordan. Well, the rules would apply equally no matter 
who the carrier flies for, the company that they fly for. It's 
going to be applied evenly across the board.
    Senator Stevens. Did I hear you express reservation about 
those who are over 60 having qualifications to fly?
    Dr. Jordan. The Age 60 Rule is a somewhat arbitrary or 
discretionary rule, and I think there are those individuals 
that are probably OK, the problem is in determining who is, and 
who is not, all right for flying over age 60.
    Senator Stevens. I'm 82 this year, I think I'm in better 
shape than I was when I was 60. I can run faster, play better 
tennis, swim better, I'm in better shape, 25 pounds less--
aren't the factors that you're talking about related to overall 
health, rather than age?
    Dr. Jordan. It would be preferable to do that, but I know 
of no protocol that could be used to make those kinds of 
distinctions.
    Senator Stevens. But what I'm saying is those who you're 
talking about in terms of being questionable, over 60, don't 
they have other health factors, other than age, that would lead 
them to be disqualified?
    Dr. Jordan. I'm not sure I follow the question, Senator, 
could you rephrase that?
    Senator Stevens. You're questioning anyone that's over 60 
being healthy enough to fly, aren't you?
    Dr. Jordan. I'm still having a little trouble 
understanding, you said people over age 60 are healthy enough 
to fly?
    Senator Stevens. My understanding of what you've testified 
is that those over the age of 60 have some question as to 
whether they should be allowed to fly, am I misunderstanding 
you?
    Dr. Jordan. No, I think that's correct, I think anyone over 
age 60--the problem is we don't, we're unable to sort out those 
who might be healthy enough to fly from those who are not.
    Senator Stevens. And my question to you is, is that age-
related, or just health-related, over 60?
    Dr. Jordan. Well, it's the Age 60 Rule, so it's age-
related?
    Senator Stevens. I'm asking you as a doctor, forget about 
the Rule. People over 60--are you saying that they tend to be 
unhealthy, so that they shouldn't be able to fly as a 
commercial pilot?
    Dr. Jordan. I think the problem is knowing who can and who 
should not fly over age 60.
    Senator Stevens. It seems to me what you're saying is the 
rule is the rule and you're going to support the Rule, I'm 
asking you as a doctor whether you agree with that rule?
    Dr. Jordan. I believe that there has to be some arbitrary 
age limit for pilots. Whether or not it be age 60, or 63, or 
65, or 55, I think is a matter of discretion.
    Senator Stevens. Thank you.
    Senator Burns. I have one question for Dr. Rayman--are 
there other experts in the medical and scientific field--I 
guess this the question--that share your views on the Age 60 
Rule? And have there been no independent studies or analysis to 
refute the FAA's justification for keeping this rule?
    Dr. Rayman. Well, as I said, sir, the studies that have 
been published were dealing with pilots that are not air 
transport pilots, and we consider that a flaw. But, the 
Association, which I represent, takes a stand that the age for 
air transport pilots could be raised to another arbitrary age 
above age 60. That is the official position of our 
organization.
    Senator Burns. Would you suggest that--and I would ask 
that, if the Rule was removed--would you suggest a physical 
twice a year, rather than the once a year that's required now?
    Dr. Rayman. I think if the Rule was removed, it would 
probably be an operational decision and not a medical decision, 
but we would be very willing to work with whatever body that 
deliberates this issue to determine if more medical tests 
should be added--perhaps some should--some countries don't add 
any tests, they just increase the maximum age to 65 and require 
no further exams, other than the routine exam. We'd be willing 
to work with any deliberative body to determine if we ought to 
add more tests to--medical tests, that is--or tests of 
cognition, or tests of motor function. I haven't a prepared 
answer for you on this which tests should be selected, if any, 
but there's a possibility that we would recommend no further 
testing.
    Senator Burns. I find it odd that if other countries allow 
their pilots to fly over the age of 60 that there isn't some 
sort of a record--not only with their health, but their safety 
record--as compared, say, to people that are flying between 55 
and the age of 60.
    Dr. Rayman. Well, as you've heard Senator, there are a 
number of pilots flying for other airlines, but I have seen 
nothing published regarding a study of their health status, or 
how well they fared. I do know I've seen no studies or no 
reports that indicate that these older pilots are unsafe.
    Senator Burns. Dr. Jordan, are there age restrictions on 
any other modes of transportation?
    Dr. Jordan. Not that I'm aware of, sir, no.
    Senator Burns. Have you got another question? Ask your 
question, Senator.
    Senator Stevens. Well, let me--both Dr. Jordan and Dr. 
Rayman, here's my problem--I come from a state where there are 
very few buses and roads. Over 75 percent of our towns, cities 
and villages can be reached only by air. We have Part 121 
planes, they are subject to the Age 60 Rule, Part 135 is not. 
There's no limit at all on being a commercial pilot in Part 
135. Now, they're flying to the same places, along comes the 
FAA and says, ``We want you to help us transition the Part 135s 
into Part 121s because they're safer. They're safer to fly, 
Part 121s.'' And we're doing that, the Postal Service asked us 
to do that. Ten thousand pilots in my state, there are 750 of 
them that are truly commercial in the sense of being multi-
engine commercial operators. Fifty percent of them are over 
55--fifty percent of all pilots in Alaska are over 55. Now, the 
bulk of the aircraft are owned by people doing some type of 
commercial work. I don't understand a Rule that says, pretty 
soon we're not going to have enough pilots to fly our planes. 
And I'm trying to find out what the justification is for the 
FAA to keep this rule on us, at the same time as they're 
telling us, ``Try to move your people out of the Part 135 
operations into Part 121.''
    Now, have you ever done any studies of those people that 
are flying the Part 135s that are over-age, and determined 
whether their accident records were related to age or either 
medical conditions?
    Dr. Jordan. Yes, sir, several studies have been done, the 
results of those studies are somewhat conflicting. Studies done 
by Civil Aerospace Medical Institute in Oklahoma City, would 
tend to indicate that the accident rate does increase in those 
operations, based upon age. There is at least one outside study 
that I'm aware of that would tend to indicate that the accident 
rate does not increase with age for those pilots. Those studies 
vary, because the cohorts that are used in determining how the 
research should proceed, factors related to what licenses the 
airmen hold, what classes of medical certificates, and 
precisely what operations they're involved in. And I think that 
has led to a great deal of confusion in terms of whether there 
is an increase in accidents in that population. I think overall 
that there probably is.
    Senator Stevens. The Part 135 pilots and Part 121 pilots 
take the same physical, for commercial operations.
    Dr. Jordan. Yes, they do, but they're involved in different 
operations.
    Senator Stevens. That's my point, too, the aircrafts in 
Part 135 may not be as safe and as modern as the Part 121s are, 
and we're trying to transition there, but as we transition 
there, we've got a 60 year age limit. We're going to lose 50 
percent of our pilots because they're over 55 within 5 years. I 
think this bill means a great deal more to my state than anyone 
else.
    What would it take to get some type of studies that you all 
would rely on in terms of determining whether this rule makes 
total sense from a medical point of view?
    Dr. Jordan. Over the years a number of studies have been 
done, but they don't seem to provide us the answers we need to 
make those changes.
    Senator Stevens. Well, what are the questions you don't 
have the answers to?
    Dr. Jordan. Well, the questions that we don't have the 
answers to are in relationship to accidents, I think in those 
particular operations, the Part 121 operations, and this is 
largely an outgrowth of the Rule itself, because we don't 
permit individuals to fly those operations after age 60. So 
those, you have to use surrogate data, which are data from air 
taxi operations, private operations, those data have been used 
in the past, and unfortunately, by-and-large, most of those 
studies indicated that accidents do increase with age. And age 
60 seems to be the break-point.
    Senator Stevens. Then why don't you apply it to Part 135 
planes that carry people commercially?
    Dr. Jordan. We do apply it to Part, well, Part 135 
operations being operated under Part 121 rules, which include 
aircraft of ten or more seats, all of those operations fly 
under Part 121 rules and are subjected to the Age 60 Rule. But 
the smaller operations, the age limits do not apply. And I 
think it's a matter of where you draw the line.
    Senator Stevens. More than nine seats, you mean?
    Dr. Jordan. Yes.
    Senator Stevens. Well, no offense, but this is a 
conundrum--10 years ago, or even longer--I remember sitting at 
the table with Barry Goldwater, a similar hearing back when he 
was here that, what, didn't have the pressure on us now, 
Alaska, that it does now, because our pilots are aging, and 
they're not coming up to fly the way they used to in terms of 
younger pilots coming into Alaska for these operations. I think 
something has to be done. Thank you, Mr. Chairman.
    Senator Burns. Dr. Rayman, we've been joined with Senator 
Pryor in the Committee, Senator Pryor, do you have a question 
for this panel, these are the physicians that are in charge, 
Aerospace Medicine for the Federal Aviation Administration, do 
you have any questions for these folks?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I do, Mr. Chairman, if they've answered your 
questions.
    Senator Burns. And if you have a statement, I'd sure put it 
in the record for you.
    Senator Pryor. Thank you, I don't have a statement.
    Senator Burns. You have the floor.
    Senator Pryor. Thank you.
    I'm sorry I was late joining this meeting, Mr. Chairman, 
and the panel, but let me just say this, and maybe this is what 
Senator Stevens was referring to as well. The 60 year rule in 
my view, has a degree, at least, of arbitrariness to it. Can 
you all walk through with me, if possible, what is so magic 
about age 60? If I could just--
    Dr. Jordan. Well, sir, I don't think that there is magic to 
age 60, I think it is an age at which individuals appear to be 
developing more frequently, the medical problems that could 
cause sudden, or even subtle incapacitation, a deterioration in 
cognitive performance that may become problematic from a safety 
perspective, but there is a certain amount of arbitrariness or 
discretion related to age 60, as I mentioned in earlier 
testimony, some individuals deteriorate in terms of performance 
and develop medical problems well before age 60, but it seems 
like it is a logical point at which, with the discretionary 
approach that you would say that an individual should no longer 
serve in the highly safety-sensitive responsibilities, 
particularly in the piloting of aircraft.
    Senator Pryor. Do you all have anything to add to that? Do 
you have anything to add to that?
    Dr. Rayman. In a word, I would say that any age that we 
select today is arbitrary. You won't find any studies that will 
convince everybody what the proper age should be. If you really 
want to find out the proper age, you have to do a whole bunch 
of studies, and these studies would take years to do and would 
cost a lot of money, and would be very difficult to design. In 
the meanwhile, we would suggest that pilots, once they reach 
the age of 60, be permitted to continue flying beyond age 60, 
albeit it would be another arbitrary age, whichever one is 
selected, whether it's sixty-three, four, five, or whatever. We 
feel that there's very little risk in taking this course of 
action, and these older pilots could be monitored for some 
period of time, and if we do, indeed, find that there are no 
safety problems, then more and more pilots could be added on, 
beyond age 60, and perhaps the arbitrary age could even be 
lifted even higher.
    Senator Pryor. And I guess what both of you are saying is 
that it really is an individual test in a sense that for some 
people, 60 is not as old as it is for other people in terms of 
physical abilities and mental abilities, et cetera, I mean, 
that's what my life experience tells me, anyway.
    Let me ask you both about the International Civil Aviation 
Organization, I think they call that ICAO? Is that the acronym, 
is ICAO, which is spelled I-C-A-O, but nevertheless, they 
looked at the age 60 matter in December of this past year, and 
they recommended proposing a change in the current standards 
that would raise the age limit for pilots to 65 in multi-crew 
situations, are you familiar with this, Senator Stevens?
    Senator Stevens. That is the European rule.
    Senator Pryor. Yes, 65 in multi-crew situations, with a 
second pilot age 60 or under, I guess, under age 60, and in 
addition, those over 60 would require medical assessment every 
6 months, which I assume is more frequently, probably they 
would do an annual exam now, I would guess, and they'd 
recommend if you're over 60 that you do it every 6 months.
    Dr. Jordan. Currently in the U.S., pilots are, in air 
carrier operations, there's a pilot-in-command, who must be 
examined at 6 month intervals.
    Senator Pryor. Six months, now, in the U.S., for a pilot-
in-command.
    Dr. Jordan. That's correct.
    Senator Pryor. OK, and so, Mr. Jordan if I can, what are 
your opinions of the ICAO recommendations?
    Dr. Jordan. Well, you know, I think it's the selection of a 
different, somewhat arbitrary age limit for certain pilots in 
the cockpit, and I think that ICAO, and actually what's being 
proposed by ICAO mirrors what's going on, I think, with the 
Joint Aviation Authority in the European countries. Because 
those countries, or at least some of those countries, have gone 
to age 65, but again, that's arbitrarily selected. And without 
good, scientific foundation, I think that, perhaps, ICAO and 
the European countries are hedging their bets, so to speak, by 
requiring the other pilot in the operation be under age 60, so 
they're very tentatively, I think, changing the position on age 
60. I do need to point out that ICAO has not yet adopted this 
rule.
    Senator Pryor. Right, that's a recommendation that they've 
received. Right.
    Dr. Rayman, do you have a comment on the ICAO approach?
    Dr. Rayman. We would be in favor of it.
    Senator Pryor. Let me ask this, too, and this will be the 
last question, is--just medically speaking--the fact that life 
expectancy is growing, people are living longer, more active 
longer, on average, does that factor in and of itself, does 
that mean that we should examine the Age 60 Rule? Should we 
consider, as life expectancy grows, that we maybe should go to 
62 or 65, I mean, is that--or does that matter at all? Does 
life expectancy have a bearing on this?
    Dr. Jordan. Well, you know, I think life expectancy, of 
course, increased life expectancy that we're experiencing, at 
least in the United States and other developed countries, is 
very encouraging for all of us, but we still have to contend 
with diseases that occur at earlier ages, and cardiovascular 
disease, neurological disorders, psychiatric disorders, 
cognitive performance is also problematic as an individual 
ages. Those things have really not changed. What has changed, I 
think is the delivery of healthcare in advanced nations, more 
methodologies for treatment of various conditions, whether 
surgical, medicinal, or otherwise, and I think that has 
contributed substantially to prolonging the life of people in 
developed countries.
    Senator Pryor. So, I guess what you're saying is, the fact 
that people are living longer, doesn't necessarily mean they're 
more capable of flying aircraft beyond age 60?
    Dr. Jordan. Yes, sir, that's correct.
    Senator Pryor. Dr. Rayman?
    Dr. Rayman. Well, I would agree with what you just said, 
certainly people are living longer, but as I said in my 
testimony, some individuals, pilots, could fly safely--we 
believe--beyond age 60, and some probably should be retired, 
and the challenge is to determine which ones are which, and 
that's our great challenge.
    Senator Pryor. Right.
    Mr. Chairman, that's all I have, thank you.
    Senator Burns. Thank you very much. I was just reminded 
here, Senator Stevens, as a reminder, controllers have an age 
limit of 56, is that correct, Dr. Jordan?
    Dr. Jordan. That's correct, currently, yes.
    Senator Burns. Now, they have been granted waivers after 
extensive physical and psychological tests, is that correct?
    Dr. Jordan. Not so much medical or psychological testing, 
no, I think they've been granted waivers based upon 
performance, and observations of performance, those controllers 
that are able to work very busy sectors and seem to do so 
proficiently, those controllers who are not out sick 
frequently, those controllers who are not problem employees, so 
there are a lot of criteria that are being used to grant those 
exceptions, but they are not medically based.
    Senator Burns. Thank you, that's sort of interesting, and I 
think it sort of lends to the statement of Senator Stevens as 
maybe they should base, if they fly over 60, it should be based 
on the health of the pilot, rather than on the age. It would 
seem like that would lend a pretty strong support to his 
statement.
    Dr. Jordan. Again, I don't think those decisions are 
currently based, except in a peripheral way, on the medical 
status of the individual, or----
    Senator Burns. But the same could be said about the 
proficiency of the pilot, the individual pilot may be a check 
ride, or whatever, we could make those determinations, or 
whatever. So, I have no other questions for this panel, I want 
to thank you for your testimony, though, it's important that we 
have it, and I would imagine there will be questions from other 
members of this committee, if they're submitted, could you 
respond to the Committee and to the individual Senator? We 
thank you today.
    Our second panel is Captain Duane Woerth, President, Air 
Line Pilots Association International, Captain Joseph 
Eichelkraut, President, Southwest Airlines Pilots' Association, 
Captain Ralph Hunter, President of Allied Pilots Association, 
and Captain Al Spain, Senior Vice President of Operations, 
JetBlue Airways Corporation. So, we welcome you gentlemen to 
the Committee today, and we look forward to having your 
testimony and respond to our questions.
    I first call on a familiar face, he's been before this 
committee before, and I thank him for coming, Captain Duane 
Woerth, President of the Air Line Pilots Association, 
International. Thank you for coming.

       STATEMENT OF CAPTAIN DUANE E. WOERTH, PRESIDENT, 
       AIR LINE PILOTS ASSOCIATION, INTERNATIONAL (ALPA)

    Mr. Woerth. Thank you, Mr. Chairman. My name is Duane 
Woerth, I am the President of the Air Line Pilots Association, 
International and our union is the largest pilot union in the 
world, it represents more than 64,000 airline pilots of 41 
carriers, and it's an honor to be before your committee today 
to address this Rule.
    The Federal Regulation that restricts airline pilots from 
flying as captains and first officers in Part 121 operations is 
one of the most historically contentious issues inside the 
pilot community. For every strongly held opinion that this rule 
must be changed, there is an equally strong opinion that it 
remains the same.
    As many of you already know, our Association recently 
completed the most comprehensive information campaign and 
member survey that our union has ever concluded on a single 
issue and, by the way Mr. Chairman, I have copies of all of the 
information and the survey, if you'd like copies of that I 
would submit it for the record if any Senator wants that.
    The results of that survey were presented to the leaders of 
our 41 pilot groups known as our Executive Board for 
discussion, and their discussion led to the unanimous vote to 
simply accept the reported results. No matter their personal 
views on the issue or the views within the pilot community, the 
ALPA Executive Board agreed that the information campaign had 
been exhaustive and balanced, that the members understood the 
issues at stake, and that the survey results were clear and 
accurate. While the survey confirmed that our membership is 
split--I will emphasize that, we have a split membership on 
this issue--a clear majority did manifest itself. Therefore, 
the Air Line Pilots Association, today, remains opposed to 
changing the Age 60 Rule.
    So, what exactly did our pilots tell us? Let me share just 
a few of the statistic nuggets gleaned from the survey, which 
has less than a 1-percent margin of error. When asked in a 
straightforward ``yes or no'' format, 56 percent of ALPA pilots 
opposed changing the Rule, 42 percent want to change it. When 
we asked pilots specifically about changing the age to 65, 
support for maintaining the current rule actually rose to 58 
percent, and support dropped to 39 percent. When asked about 
the support for additional operational or medical requirements, 
should the Rule be changed, results indicate the opposite, 
rather the opposition to the Rule would actually grow into the 
mid-sixties. Only 29 percent support additional or more 
stringent medical exams, and a mere 23 percent support more 
line or simulator checks. And only 22 percent support 
additional operational restrictions, should the Age 60 Rule 
change.
    In a separate survey we conducted earlier in the year, on 
priorities for ALPA, we asked pilots to rank legislative issues 
in order of importance, as you said Mr. Chairman, we've been 
before your committee for many issues. At the top of the list 
were issues the pilots wanted us to fight strongest against--
opposing foreign sabotage, passing pension legislation, 
restricting foreign ownership, and promoting general aviation 
issues.
    The bottom of the list was changing the Age 60 Rule, second 
from the bottom was keeping it the same. After all that our 
pilots have been through--terrorism, bankruptcy, furloughs, pay 
cuts, work world changes--a majority, a small majority, still 
believes that this rule works.
    If you had asked me one year ago to predict what I would be 
saying today, I would have predicted that a majority of ALPA 
members would have moved to the other side. That's why, one of 
the reasons, we went through all this elaborate survey, because 
we felt with the terrible loss of pension benefits--and many of 
the pilots in this room today have lost their pensions--with 
all of the deep pay cuts we have suffered, I was convinced that 
the membership was probably going to vote the other way. As it 
turns out--we did not, incidentally, include our furloughed 
pilots--5,000 furloughed pilots--who might have been expected 
to vote strongly to keep the Rule--we didn't do that, but in 
spite of that there was a majority who want to keep the Rule.
    In my formal testimony, I have included a litany of medical 
studies, court decisions, and previous Congressional actions to 
build a strong case for keeping the Rule. I will not elaborate 
on them here today, but I think much of what has been said 
holds true. There are a lot of pilots who would like a separate 
physical for them that would make that test. Today the FAA says 
they can't do it, or they haven't done it, or it's too costly.
    Furthermore, no safety rule operates in a vacuum, or is 
isolated from the rest of the world's operating environment we 
face in the first years of the 21st century--mind-numbing pilot 
fatigue, and the mental errors it leads to are still one of the 
largest threats to aviation safety. Sixteen hour domestic duty 
days--even longer with trans-Pacific operations are facts of 
life for airline pilots. Irregular shifts, all-night 
operations, and significant circadian-living challenges all 
contribute to pilot fatigue.
    Airline piloting is an occupation that is physically 
punishing. A significant percentage of airline pilots do not 
make it now to age 60. I'd like to cite a Northwest Airlines 
example you often meet in the World Club as we head out to 
Minneapolis and Montana--that's my alma mater, by the way--and 
43 percent, we've been doing a check of every single pilot 
who's retired from Northwest Airlines since 1993. Forty-three 
percent of the pilots retired do not retire at 60, they retire 
before 60, either with disabilities, or voluntarily early.
    Now, with all of the contract award concessions that have 
occurred since September 11, especially at our legacy airlines, 
a higher percentage of pilots are flying more hours, working 
more days, with longer duty periods than any other time in 
recent history. Nonetheless, some air carriers want to increase 
pilot flight and duty time limitations. At least one air 
carrier who advocates changing the Age 60 Rule, wants this 
pilot to fly from the East Coast to the West Coast and back, 
all within one duty period. Now, current safety rules would 
have to be waived to permit this. I think airline managements 
who advocate changing the Age 60 Rule should put all of their 
cards on the table, and tell us what other safety regulations 
they'd like to change, since we're not going to do this in a 
vacuum.
    Now, no matter what this committee or the full Senate may 
decide to do with the Age 60 Rule, the current flight and duty 
time rules affecting pilot fatigue need to be enhanced, not 
weakened. Mr. Chairman, I believe this issue of pilot fatigue 
is one of those issues that your committee might want to tackle 
this year.
    As to international standards as to the Age 60 Rule--there 
are some who cherry-pick the facts and point to several, or 
many, European nations that have carved out exceptions to 
ICAO's age 60 standards. The fact remains that the most 
retirement ages in Europe are governed by contractual language 
between airlines and pilots' unions. The regulatory standard in 
France and Italy remains at 60, the Dutch airline, KLM, pilots 
have negotiated a retirement age of 56, at British Airways, 
that age is 55.
    Let's be clear about this--the state licensing standard has 
been raised to 65 throughout almost all of Europe. However, the 
overwhelming majority of airline pilots within Europe still 
retired before 60, I think that explains some of the questions 
you had that were kind of self-evident, why aren't there a lot 
of pilots--most pilots still retire under contracts below 60, 
even though the licensing standard has been changed as you've 
noted, and others have noted, to 65 within Europe.
    At any rate, you invited me to hear data to offer the 
pilots profession's perspective on the Age 60 Rule. As is done 
with any transparent, representative organization should do 
when faced with a very controversial issue--and believe me, 
this is as controversial as it gets inside our union. We've 
learned about it, we've talked about it, we've asked our 
members, recorded from this fine profession what they believe, 
the results are in, and we do have a majority--although a small 
majority--who still want to maintain the Rule. Thank you for 
inviting me to this committee's hearing.
    [The prepared statement of Captain Woerth follows:]

       Prepared Statement of Captain Duane E. Woerth, President, 
           Air Line Pilots Association, International (ALPA)
    Good afternoon, Mr. Chairman and members of the Committee. I am 
Duane Woerth, President of the Air Line Pilots Association, 
International (ALPA). Our union--the largest pilot union in the world--
represents more than 64,000 airline pilots at 41 carriers. On behalf of 
ALPA, I appreciate the invitation to appear before the Committee today 
to present ALPA's views on the mandatory retirement age for airline 
pilots as specified under the FAA regulation commonly known as the 
``Age 60 Rule.''
    The Federal regulation that restricts airline pilots from flying as 
captains and first officers in Part 121 operations is one of the most 
historically contentious issues among the pilot community. For every 
strongly held opinion that this rule must be changed, an equally strong 
opinion holds that it remain the same. As many of you already know, our 
Association recently completed the most comprehensive information 
campaign and member survey that our union has ever conducted on a 
single issue. The results of that survey were presented for discussion 
to our Executive Board, which is made up of the leaders of our 41 pilot 
groups.
    Their discussion led to a unanimous vote to accept the reported 
results, leaving our policy on the Rule intact. No matter their 
personal views on the issue, or the views within their own pilot 
communities, the ALPA Executive Board agreed that the information 
campaign had been exhaustive and balanced, that our members understood 
the issues at stake, and that the survey results were clear and 
accurate. Their unanimity makes it possible for me to state for the 
record today that the Air Line Pilots Association opposes changing the 
Age 60 Rule, as we have since 1980.
Results of the ALPA Age 60 Survey
    Since September 2004, when we began this initiative, our members 
have considered the issue from many angles, weighed the evidence, and 
expressed their views on the Age 60 Rule candidly and forthrightly. The 
assessment of ALPA members' views is based on two studies with 
identical questionnaires. The first was a telephone poll conducted from 
March 30 through April 4. The second was a web-based survey conducted 
from April 4 through April 29, 2005. Taken together, the telephone poll 
data and the two sets of demographically stratified web survey data 
provide extremely accurate results, with a raw sample margin of error 
of less than 1 percent, and less than 0.5 percent with sample 
stratification. We specifically excluded polling our roughly 5,000 
furloughed pilots, who would presumably be the strongest supporters of 
keeping the Rule in place.
    The results of the survey show that a majority of ALPA pilots favor 
maintaining the Age 60 Rule. Consider the following statistics from the 
survey:

  <bullet> When asked in a straight-forward yes or no format, ``Do you 
        favor changing the FAA Age 60 Rule?'' 56 percent of ALPA pilots 
        support maintaining the current rule; 42 percent want it to 
        change.

  <bullet> When we asked pilots specifically about changing the Rule to 
        age 65, support for maintaining the current rule rose to 58 
        percent and support for change dropped to 39 percent.

  <bullet> The more specific we got, the fewer pilots supported change. 
        When given a series of options and asked which they would most 
        support, 54 percent support the current rule, while only 10 
        percent support increasing the age limit to 62, and only 22 
        percent support increasing it to 65. Further, fewer than 10 
        percent support the option of changing the Rule to one that 
        measures physical ability and health on an individual basis, 
        regardless of age. And, fewer than 5 percent support increasing 
        the age limit to higher than age 65 (2 percent), or lifting the 
        age limit completely (3 percent).

    Several collateral findings indicate that the majority who oppose a 
change in the Age 60 Rule could grow even larger--into the low-to-mid-
60 percent range or higher--depending on the specifics of any 
requirements and/or restrictions that might be proposed. We asked 
pilots whether they support additional operational and/or medical 
requirements if the Rule is changed. Only 29 percent support additional 
medical exams, a mere 23 percent support more line/simulator checks, 
and only 22 percent support additional operational restrictions if the 
Age 60 regulation is changed.
    These results reflect the pilot profession's perspective on the Age 
60 Rule. Additionally, numerous court decisions, extensive medical 
studies, and previous Congressional actions have led to the same 
conclusion: This rule should be changed only if we can guarantee--
beyond all reasonable doubt--that any change will have a positive 
effect on air safety.
Rationale for Maintaining the FAA Age 60 Rule
    The Age 60 Rule is based on two fundamental principles of medical 
science that are indisputable. First, the risks of incapacitation and 
unacceptable decrements in performance increase with age. Second, 
medical science has not developed a regimen of reliable tests that can 
be administered effectively to determine which aging pilots will become 
incapacitated, or whose performance will decline to an unacceptable 
level. The issues surrounding the regulation have been studied as 
thoroughly as any aeromedical matter affecting pilots, and after 
decades of comprehensive studies and exhaustive review, these two 
principles are still valid as the underlying basis for the Rule.
    The FAA, when it reviewed the most advanced cognitive testing 
technology, known as CogScreen-AE, concluded that that test ``cannot 
sufficiently identify age-related cognitive function deficits that 
would impact pilot performance and aircraft safety.'' On appeal of this 
decision in Yetman v. Garvey 261 F.3d at 675 (7th Cir. 2001), the Court 
of Appeals affirmed the FAA's decision, concluding: ``Ultimately, we 
find that substantial evidence supports the FAA's finding that 
CogScreen-AE is not, at this point, an adequate cognitive tool for 
determining whether an exemption to the Age 60 Rule is warranted.''
    Recently, the U.S. Supreme Court let stand a lower court ruling 
declining to hear a group of pilots' applications for exemption from 
the FAA Age 60 Rule in Butler v. FAA, cert. denied, 125 S. Ct. 1986 
(May 2, 2005).
    The Age 60 Rule has also withstood the legal challenge that it 
constitutes age discrimination. Although the Rule does mandate a 
chronological age for retirement, the D.C. Circuit Court ruled that it 
does not violate the Age Discrimination in Employment Act (ADEA). In 
Professional Pilots Federation (PPF) v. FAA, 118 F.3d at 763 (D.C. Cir. 
1997), the court held that, ``nothing in the ADEA can plausibly be read 
to restrict the FAA from making age a criterion for employment when it 
acts in its capacity as the guarantor of public safety in the air . . . 
therefore, we conclude that the ADEA does not limit the authority of 
the FAA to prescribe a mandatory retirement age for pilots.''
    In late 1979, the House of Representatives rejected a proposal to 
relax the Rule, and directed the National Institutes of Health to 
conduct a study to determine if sufficient medical evidence supported 
the Rule. In August 1981, the National Institute of Aging Review Panel 
on the Experienced Pilots Study, which was responsible for reviewing 
the study and submitting a report to Congress, concluded:

        ``The Panel attaches no special medical significance to age 60 
        as a mandatory age for retirement of airline pilots. It finds, 
        however, that age-related changes in health and performance 
        influence adversely the ability of increasing numbers of 
        individuals to perform as pilots with the highest level of 
        safety and, consequently, endanger the safety of the aviation 
        system as a whole. Moreover, the Panel could not identify the 
        existence of a medical or performance appraisal system that can 
        single out those pilots who would pose the greatest hazard 
        because of early or impending deterioration in health or 
        performance.''

    After the NIA completed its review, the Rule was contested in 
Federal court and reconsidered by the FAA. In 1989, in response to a 
directive by the U.S. Court of Appeals for the Seventh Circuit, the FAA 
reviewed the evidence and reaffirmed its support of the Rule. In the 
decision, the FAA's Director of Flight Standards stated:

        ``Based upon all of the studies discussed, we conclude that an 
        older pilot's edge in experience does not offset the undetected 
        physical infirmities associated with the aging process. 
        Notwithstanding that most pilots who are approaching or have 
        passed age 60 report that their health is excellent and they do 
        not experience any physical or cognitive limitations which 
        would prevent them from continuing their flying career, the 
        research of aging indicates that there is often a sharp decline 
        in physical and cognitive performance after age 60. There is 
        substantial scientific evidence which indicates that the 
        greater experience of the pilots who have reached or passed age 
        60 does not outweigh the increased risk of incapacitation or 
        skill deterioration which accompanies seniority.''

    Between 1990 and 1994, the FAA sponsored a four-part study, known 
as the ``Hilton Reports,'' to review the Age 60 Rule. The part that 
received the most attention was a study of accident rates as a function 
of age, and that part concluded that the FAA could cautiously raise the 
age limit to 63. However, the FAA found some substantial flaws in the 
accident study and never adopted its conclusions. The D.C. Circuit 
upheld the FAA's decision in PPF v. FAA, 118 F.3d at 769.
    Between 2000 and 2003, the FAA, at the request of Congress, 
sponsored an updated four-part study conducted by the Civil Aerospace 
Medical Institute (CAMI). The CAMI study claimed that no necessary 
relationship existed between the accident rate and pilot age, but in 
2004 an update to the original CAMI study analyzed the general 
methodology used in accident studies and concluded that the data are 
prone to errors and misinterpretations, thus calling into question the 
results.
    Advocates for changing the Rule point out that many countries have 
an upper age limit beyond 60, and a few have no upper age limit at all. 
Some countries have modified their regulations for licensure purposes 
as one way to address their pilot staffing needs. However, this is not 
a need in the United States, where more than 6,000 ALPA pilots are 
currently furloughed because of the financial state of the airline 
industry.
    Pilots for many of the major airlines in Europe actually retire 
before the age of 60, some as young as 55. This corresponds with a 
large percentage of pilots for the major U.S. carriers who actually 
retire before age 60 for medical or other reasons. Also, regardless of 
the local regulatory requirement, at most European national carriers, 
their collective bargaining agreements govern the retirement age, which 
in most cases is less than 60, and pilots older than 60 are generally 
limited to the second-in-command position.
    These examples substantiate the FAA's determination that the Age 60 
Rule is reasonable and within an acceptable range of risk for 
commercial air transportation operations and has proven to be an 
effective safety regulation. The results of the ALPA Age 60 survey 
reaffirm the Association's policy in support of the FAA's position.
    Mr. Chairman, let me conclude my statement by saying that 
commercial aviation is the safest form of transport in human history. I 
am proud of the role that ALPA pilots have played in achieving that 
reality. We cannot take that reality for granted, however. We must do 
all we can to defend and preserve our safety record--and resist all 
attempts to change safety regulations simply to boost profit margins. 
The Age 60 Rule is a safety regulation and should not be changed or 
repealed unless and until the FAA--not ALPA or any other pilot 
organization--is convinced, based on sufficient and conclusive 
evidence, that such action would not have a negative effect on safety.
    Thank you for this opportunity. I will be happy to answer any 
questions you may have.

    Senator Burns. Thank you, Captain, we appreciate your 
coming today.
    Captain Joseph Eichelkraut?

  STATEMENT OF CAPTAIN JOSEPH ``IKE'' EICHELKRAUT, PRESIDENT, 
             SOUTHWEST AIRLINES PILOTS' ASSOCIATION

    Mr. Eichelkraut. Chairman Burns----
    Senator Burns. President of Southwest Airlines Pilots' 
Association, sorry about that, I'm--we look forward to your 
testimony and thank you for coming.
    Mr. Eichelkraut. Thank you, Chairman Burns and Chairman 
Stevens, Senator Pryor.
    Senator Burns. You might want to pull that microphone up, 
everybody wants to hear you.
    Mr. Eichelkraut. Thank you for the opportunity to testify 
on the Age 60 Rule. Mr. Chairman, I commend you and Chairman 
Stevens for your leadership in becoming original co-sponsors of 
S. 65, which would end the Age 60 Rule, and the 45 years of age 
discrimination it has engendered.
    At Southwest Airlines, we view the Age 60 Rule as a 
solution in search of a problem. It is a government-imposed 
restriction without a justifiable medical or safety 
explanation, and the Rule is more indefensible now than it has 
ever been.
    In today's economically strained aviation industry, it 
seems that companies can renege on pension promises made to 
their pilots, leaving them without a livelihood and with 
reduced retirement benefits at age 60, and our government won't 
let these pilots, many of whom are the safest, most experienced 
pilots in the skies, keep working until they are eligible for 
Social Security or Medicare benefits. No one on this panel in 
support of changing the Rule is looking for a handout. We are 
simply asking Congress to tell the FAA to allow us to work, to 
let us pay into Social Security and our own pension funds, and 
to retire at 65, our national retirement age.
    At Southwest Airlines, we believe safety has never been the 
real basis for this rule. After all, millions of hours of 
flight time have been logged by pilots over 60, all over the 
world, and there has never been a single accident in a two-man 
crew environment attributed to pilot age. Moreover, the FAA 
routinely permits pilots of foreign carriers who are over the 
age of 60 to fly here, but not the U.S. pilot, operating under 
Part 121.
    In a related issue, the FAA maintained, until this year, 
that safety was the reason why air traffic controllers were 
forced to retire at 56. In the face of controller shortages, 
however, the FAA now permits them to work until 61, and says 
that safety is less of a concern.
    So, if it is not about safety, what is the reason? Well, 
the Age 60 Rule came about in 1959, not due to any public 
outcry over safety concerns, but as a convenient way to settle 
a labor dispute regarding forced retirements at American 
Airlines over training pilots to fly the brand-new Boeing 707 
jet aircraft. ALPA successfully challenged, and reversed, these 
company-imposed retirements. Following this, C.R. Smith, CEO of 
American Airlines turned to FAA Administrator Pete Quesada, and 
asked him to make age 60 the federally mandated retirement age 
for airline pilots. The rule became effective on March 15, 
1960.
    Today, ALPA supports the Rule, but apparently only for U.S. 
pilots. If safety were truly a concern for the ALPA leadership, 
why would they compromise safety principles to negotiate a 
contract allowing Canadian regional Jazz pilots to fly until 
the age of 65?
    In a display of solidarity, the pilots and management of 
Southwest Airlines strongly support changing the Rule. In a 
recent amicus brief to the Supreme Court, Southwest Airlines 
argued that the FAA's rigid implementation of the Rule deprives 
not only Southwest Airlines, but the flying public, of some of 
its best pilots. Our founder, and Chairman of the Board, Herb 
Kelleher summed up his reasons for supporting change by telling 
a reporter, ``It's the right, moral thing to do.''
    The EEOC opposes the Age 60 Rule, and maintains that it 
violates the Age Discrimination in Employment Act. In 1981, the 
National Institutes of Health agreed, saying, ``The Age 60 Rule 
appears indefensible on medical grounds.'' The American 
Association of Retired Persons agrees as well.
    The fact is, the FAA already has in place the ideal 
mechanism for ensuring safe pilots at any age. The current 
system of checks and balances including a fail-safe cockpit 
with two pilots simply won't fall apart the day a pilot turns 
60. And given a chance to work, we know the current system will 
continue to perform as well.
    To retain my license, I must pass semi-annual physicals, 
administered by an FAA-licensed aero-medical examiner. At 40 
years of age, pilots must undergo an annual EKG, which is 
electronically transmitted to the FAA. We must pass simulator 
training twice each year, along with flight checks annually. By 
the way, there is no greater test of cognitive ability than 
these simulator rides.
    Additionally, we are also subject to random in-flight check 
rides, and random drug screens. There is no other profession in 
America today examined to this level. A 59-year-old captain 
arrives at this point in his or her career, having performed 
successfully for years, and is one of the fittest and best-
trained pilots in the skies. Yet, the FAA forces the retirement 
of hundreds of these pilots every year because of the Age 60 
Rule.
    The FAA's system is self-purging, and will continue to 
maintain, or improve, the level of safety the public counts on 
independently of this rule. Today, simulator failure rates 
among Southwest pilots are low, as shown on the graph in my 
written testimony. But as pilots approach age 60, the failure 
numbers are at their lowest. Experience is a key to this fact. 
It follows, that as pilots get older, they will be better able 
to handle complex situations, when airborne, that they may have 
encountered in simulator training and evaluations.
    In 1993, the FAA relates the Hilton study, which backs up 
this data. The study found a modest decrease of accident rates 
with age, and no sign of increase in accident rates as pilots 
near the age of 60. That suggests to me that by retiring these 
pilots at 60, the overall safety of the flying public is 
compromised.
    Some of you may remember that 16 years ago today, July 19, 
1989, United Airlines Flight 232, loaded with 285 passengers 
and 11 crew members, found itself without hydraulics, unable to 
turn, and essentially doomed. By using throttle movements to 
control the paralyzed aircraft, 59-year-old Captain Haynes and 
his crew were able to get it back to a runway in Sioux City, 
Iowa. The lives of 186 people were saved by his actions and his 
experience. In subsequent simulator tests, other crews were 
unable to repeat this. Al Haynes was forced to retire that year 
because the FAA told him he was too old.
    The Committee has before it a great solution, S. 65, and 
its House companion H.R. 65 would give pilots over 60 the 
opportunity to continue flying passengers safely to their 
destinations, until these pilots reach our national retirement 
age.
    Mr. Chairman, the pilots of Southwest Airlines, and all of 
those here in uniform today, appreciate your willingness to 
hold this important hearing, and hope that it will be the first 
step in moving legislation to change the FAA's antiquated and 
discriminatory Age 60 Rule once and for all.
    [The prepared statement of Captain Eichelkraut follows:]

 Prepared Statement of Captain Joseph ``Ike'' Eichelkraut, President, 
                 Southwest Airlines Pilots' Association
    Chairman Burns, Ranking Senator Rockefeller, and distinguished 
members of the Committee. Thank you for the opportunity to testify 
today and to present the views of the pilots of Southwest Airlines on 
the FAA Age 60 Rule. Mr. Chairman, I commend you and Chairman Stevens 
for your leadership in becoming original cosponsors of S. 65, which 
would end the Age 60 Rule and the 45 years of age discrimination it had 
engendered.
    At Southwest Airlines, we view the FAA Age 60 Rule as a solution in 
search of a problem. It is a government imposed restriction without a 
justifiable medical or safety explanation, and the Rule is more 
indefensible today than it ever has been. In the current economically 
strained aviation industry, it seems that companies can renege on 
pension promises made to their pilots, and leave them without a way to 
make a living and with reduced retirement benefits at age 60. And our 
government won't let these pilots--many of whom are the safest, most 
experienced pilots in the skies--keep working until our national 
retirement age of 65 when they are eligible for Social Security and 
Medicare benefits. No one on this panel here today in support of 
changing the Rule is looking for a handout. We are simply asking 
Congress to tell the FAA to allow us to work, to let us pay into Social 
Security and our own pension funds, and to retire at an age more in 
line with current economic and social conventions.
Safety or Economics?
    Safety is not now, and never has been the basis for this rule 
forcing commercial pilots flying under Part 121 to retire before their 
60th birthday. As Southwest pilots reach 60, like pilots of other 
airlines, they are usually the best pilots they have ever been. Pilots 
age 60 and over fly passengers safely in countries across the globe 
every day. There are millions of hours of flight time that have been 
logged by pilots over 60 all over the world, and there has never been a 
single accident attributed to a pilot's age. In fact, the FAA routinely 
grants waivers to overseas pilots of foreign carriers over age 60, but 
not for the U.S. pilot operating under Part 121.
    The FAA says the age restriction is only about safety, but recent 
and past actions on the part of the agency seem to point to economics 
and politics, rather than safety as the number one consideration on the 
age question. Similar age restrictions had been placed on air traffic 
controllers. Until this year, the FAA maintained that safety was the 
reason why controllers were forced to retire at 56. In the face of 
shortages of controllers, however, the FAA now permits them to work 
until 61, and says that safety is less of a concern.
    The same logic must have applied when the FAA exempted a group of 
pilots from the Age 60 Rule between 1995 to 1999, that were flying 
aircraft carrying between 10 and 30 passengers. Prior to 1995, these 
passenger operations were conducted under FAR Part 135, but were 
shifted by the FAA in 1995, to come under compliance of Part 121 
operations with its age 60 rule. If the FAA truly believed that the 
level of safety could not be maintained, then why grant the exception 
for these pilots to continue flying well past the age of 60? The FAA 
often cites its duty to ensure air carriers operate with the highest 
possible degree of safety. But this does not explain why the FAA 
applies the Age 60 Rule to some, but not to all air carriers operating 
in the United States.
    In a 1991 letter, Dr. Stanley Mohler, then Director of Aerospace 
Medicine at Wright State University in Dayton, Ohio, references a 
meeting held in Congressman Edward Roybal's office in the 1980s, on the 
same subject before us today in this hearing. According to Dr. Mohler, 
the FAA, represented at the meeting by Administrator Don Engen, Federal 
Air Surgeon, Frank Austin, and Deputy Federal Air Surgeon, Jon Jordan, 
stated that there was no longer a medical basis for the Age 60 
regulation. He goes on in his letter to say that the FAA was reluctant 
to delete or make exceptions to the Rule primarily because of 
administrative burdens it believed would be placed on the airlines. It 
was pure economics.
Background on the Age 60 Rule
    If it is not about safety, then what is the Rule all about? The Age 
60 rule came about in 1959, not due to any public outcry over safety 
concerns, but as a convenient way to settle a labor dispute at American 
Airlines over training pilots to fly new Boeing 707 jet aircraft. It 
took longer to train older pilots with no prior jet experience than 
younger, jet experienced, Korean War veterans, and therefore, it was 
more expensive to transition the older pilots. There were no safety or 
medical concerns expressed by either American Airlines or a panel of 
experts, convened in May 1959 by the Administrator, which recommended 
that age 55 become the maximum age for jet transition and age 60 become 
the federally mandated retirement age for airline piloting. The age 55 
provisions went away due to comments at public hearings and written 
comments. The age 60 proposal was never publicly aired per the 
prescribed rulemaking process nor was there any medical or statistical 
evidence of reduced performance in older airline pilots. In the Q&A 
section of the FAA press release that announced the age rule, the first 
question asks: ``Has it been demonstrated that age is a factor in the 
occurrence of air carrier accidents?'' The Answer was, and remains, 
``No.''
    The Air Line Pilots Association (ALPA) opposed age-based retirement 
as a matter of policy, and challenged these company-imposed age-based 
retirements through the grievance process. In 1958-59, grievances were 
directed against American Airlines (whose pilots were represented by 
ALPA at the time), TWA and Western Airlines. In some cases the 
companies used medical and flight-safety arguments to support their 
positions; interestingly enough, ALPA succeeded in rebutting these 
points, which had no scientific or medical evidence back then either. 
Each of the grievances were decided in favor of the union and against 
the airline. C.R. Smith, American Airlines founder and CEO, unhappy 
with the arbitrator's decision, refused to reinstate the three pilots 
who had brought the retirement grievance. ALPA called for a strike 
against American. After the 21-day walkout, the company ceded most 
points to the pilot group and pilots returned to work.
    Unable to hold back the pilots through normal collective 
bargaining, Smith turned to a longtime friend, Elwood R. (Pete) 
Quesada, who had been appointed Administrator of the newly-created 
Federal Aviation Administration (FAA). In a letter dated February 5, 
1959, Smith asked the FAA to proclaim age 60 as a federally-mandated 
retirement age for pilots. Quesada obliged by proposing what we now 
know as the Age 60 Rule. The FAA issued its Notice of Proposed 
Rulemaking (NPRM) less than 1 month after Quesada received Smith's 
request. I am unaware of any Congressional or FAA hearing to debate the 
proposal at the time. The Final Rule, which was modified to pertain 
only to air carrier pilots, was published on December 5, 1959, and 
became effective on March 15, 1960. In January 1962, Administrator 
Quesada retired from the FAA and was elected to American Airline's 
Board of Directors.
    Today ALPA is opposed to allowing U.S. pilots to fly past 60. But 
they support flying up to the age of 65 for Canadian pilots. If safety 
were truly a concern of the ALPA leadership, why would ALPA President, 
Captain Duane Woerth, compromise those safety principles by affixing 
his signature to an agreement permitting Canadian Regional Jazz pilots 
to fly until age 65?
Time for a Change
    The 4,700+ pilots of the Southwest Airlines Pilots' Association and 
the management of Southwest Airlines strongly support changing the 
Rule. In a recent Amicus Curiae brief to the Supreme Court, Southwest 
Airlines argued that FAA's application of the Age 60 Rule, without 
consideration of individual pilot abilities, health conditions or 
medical data is purely arbitrary and not justified; moreover, the FAA's 
rigid implementation of the Rule deprives Southwest Airlines of some of 
its best pilots at the peak of their careers. SWA believes that the 
arbitrary rejection of all age exemption requests disserves the public 
interest by depriving commercial airlines of leadership and experience 
in the cockpit. At recent rally outside the Capitol, Southwest Airlines 
Founder and Chairman of the Board, Herb Kelleher, responded candidly to 
one reporter's questions, ``It's the right, moral thing to do!''
Experts Agree: It's Age Discrimination
    The rule amounts to nothing more than blatant age discrimination 
and needs to change. The Equal Opportunity Employment Commission (EEOC) 
agrees. The EEOC opposes the Age 60 rule and maintains that the FAA 
violates the Age Discrimination in Employment Act of 1968 (ADEA) 
because it unjustifiably applies a different standard to pilots over 
age 59 than younger pilots doing the same job. In fact, The EEOC has 
successfully forced private corporations to eliminate rules that 
required their pilots to retire at 60.
    The American Association of Retired Persons agrees as well. In a 
letter of support to Senator James Inhofe for S. 65, they state ``. . . 
Older workers, like all workers, should be judged on the basis of their 
individual competency and ability to do the job. There is no evidence 
that pilots over 60 perform worse than younger pilots. Indeed, there is 
reason to believe that lengthy experience is a good predictor of pilot 
competence.''
    The NIH agrees too. In 1981, The National Institute on Aging of the 
National Institutes of Health agreed saying, ``The Age 60 Rule appears 
indefensible on medical grounds,'' and ``There is no convincing 
evidence to support age 60, or any other specific age for mandatory 
pilot retirement.''
Safe Cockpits at Any Age
    The FAA has stated that unless it can be assured that the level of 
safety is maintained or improved, it cannot support a change to the 
current age 60 rule. But this condition stated by the FAA is already 
and inherently attained by their own existing procedures--procedures 
which are the gold standard around the world. The FAA already has in 
place the ideal mechanisms for ensuring safe pilots at any age, 
regardless of whether they are 35, 45, 55 or, frankly, 65 years old. 
The current system of checks and balances does not simply fall apart 
the day a pilot turns 60; given the chance to work, we know that the 
current system would continue to perform as well. In a perfect world, 
this system coupled with the choice of the pilot, would dictate when 
the proper age for retirement has been reached.
    Let's review the current system in place. To retain my license, and 
fly as a pilot for Southwest Airlines, I must pass semi-annual flight 
physicals administered by a qualified (FAA-licensed) aero-medical 
examiner (AME). When a pilot turns 40 years of age, he must undergo an 
annual EKG every other flight physical, which is electronically 
transmitted by the AME directly to FAA headquarters where a computer 
program alerts if parameters dictate.
    Pilots must also successfully pass semi-annual simulator training 
and flight checks designed to evaluate the crewmember's ability to 
respond to various aircraft emergencies, and/or competently handle 
advances in flight technology and the Air Traffic Control (ATC) 
environment. Captains must demonstrate, twice yearly, complete 
knowledge of systems and procedures, safe piloting skills, and multi-
tasking by managing emergency and normal flight situations, typically 
in instrument flight conditions conducted in advanced simulators. There 
is no greater test of cognitive ability and mental dexterity than these 
simulator rides. Flight crews are also administered random in-flight 
check rides by FAA inspectors and Southwest check airmen. Further, we 
are subject to random alcohol and drug testing at any time while on 
duty.
    There is no other profession in America today examined to this 
level. The 59 year old Captain arrives at this point in his career 
having demonstrated successful performance following years of this kind 
of scrutiny. This pilot is one of the fittest, and best trained pilots 
in the skies. Yet the FAA forces Southwest and other airlines to retire 
hundreds of their best every year because of the age 60 rule. These are 
the checks and balances that are in place today for every pilot: two 
pilots in a failsafe cockpit, twice yearly medicals, annual training, 
annual simulator evaluations, annual flight evaluations, Federal 
inspectors, computer-verified EKG's, and Chief Pilot supervision. The 
list goes on and on. The system works now. The system is self purging. 
It will continue to maintain the level of safety the FAA banks on every 
day, and says that it needs in order to consider a change in the 
current rule.
    Today, simulator failure rates among Southwest pilots are low. But 
as pilots approach age 60 the failure numbers are at their lowest. The 
graph below shows this.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Experience is the key in this fact. As pilots get older, they know 
how to better handle the extreme situations they may have encountered 
in simulator checks. The mean failure rate declines at an even rate 
from a pilot's thirties through his fifties. Of course, because of the 
Age 60 rule, I don't have data to show that this trend would continue 
throughout a pilot's sixties, but I suspect it would.
    In 1993, the FAA itself released the Hilton Study, which backs up 
the simulator data above. The study found that ``The data for all 
groups of pilots were remarkably consistent in showing a modest 
decrease in accident rate with age [and] no sign of increase in 
accident rates as pilots near age 60.'' That would suggest to me that 
by retiring these pilots at 60, the overall safety of the flying public 
is compromised.
    Commercial flying, under Part 121 passengers requires a pilot and 
co-pilot, at least in the large commercial aircraft which SWA flies. It 
is uncommon for one of the pilots to become ill during flight, but not 
unheard of. In such cases, the other pilot is present to safely conduct 
the flight to a conclusion, at which point, a replacement is obtained 
before continuing. Most of the illnesses encountered during the flight 
regime encompass pressurization changes or incompatible food ingestion 
(the latter is probably the greatest source of illnesses flying on 
line). Less frequent are the unwanted physiological responses to 
pressure changes, but the most common is an inability to neutralize 
pressures in the sinuses or Eustachian tubes (ears) during climbs and 
descents.
Why Change Now?
    Safety has never been anything more than a pretense for the Rule. 
Political opposition to change is strong and comes from respected 
organizations like the FAA and ALPA. Age discrimination laws have been 
in place for decades and haven't forced a change in the Rule. Why 
should Congress act to change it now?
    The Rule has clearly been about economics all along. And economics 
are the reason to change the Rule now. The airline industry is 
changing. Airline pension funds are migrating rapidly from defined 
benefit (DB) to defined contribution plans (DC). At Southwest Airlines, 
my retirement benefits are quite like those that most Americans 
fortunate enough to have retirement benefits also have. I have a 401k 
plan that my company pays a defined contribution to every year. All but 
a handful of airlines now have similar benefits.
    U.S. Airways and United pension funds were terminated and taken 
over by the PBGC this year. Delta, Northwest and Continental--
essentially all DB plans--are at risk, and are likely to add 
significantly to the Federal Government's unfunded pension liability. 
Pilots at these airlines have already lost significant portions of 
their retirement, and face uncertain futures with a gap in retirement 
and healthcare benefits to carry them over to Social Security and 
Medicare age--which we all know is going up not down (as ALPA would 
like it to for pilots).
    Working to 65 would help these pilots close that gap. DC plans also 
offer pilots, and all Americans, an opportunity to maximize retirement 
savings at little cost to the government, and no risk to the PBGC or 
the corporations. DC plans offer older legacy carrier pilots the only 
opportunity to recover from the loss of their defined benefit plans. 
But pilots must be able to work until full Social Security retirement 
age, as S. 65 allows, to maximize these benefits. This will have a net 
positive impact on the Federal budget, and will have a net positive 
impact on the safety of the flying public by keeping our most 
experienced pilots in the air for an additional few years.
Breaking Records Past 60
    Today, it seems that sixty-plus year old pilots are breaking world 
aviation records with regular frequency. Just last summer the world was 
thrilled when SpaceShip One became the first manned commercial vehicle 
to slip the surly bonds of earth. The craft was piloted by 63-year-old 
test pilot Mike Melvill, who had a very physical challenge bringing 
that ship safely back to Earth. Then, we all watched this Spring, when 
60-year-old Steve Fossett became the first to complete a nonstop, solo 
airplane flight around the world.
    Fossett and Melvill are clearly top pilots, out there ``pushing the 
edge of the envelope.'' Under the current FAA rules however, neither 
would be allowed to fly a Boeing 737 for my airline.
    Today, July 19, is a fateful day in aviation history. Many of you 
will remember that sixteen years ago today, July 19, 1989, United 
Airlines Flight 232 took off from Denver, CO. Captain Al Haynes 
reported to air traffic control that his DC-10 loaded with 285 
passengers and 11 crew, were without hydraulics and unable to turn the 
aircraft, and essentially doomed. By using throttle movements to 
control the paralyzed aircraft, Capt. Haynes and his crew began to 
slowly turn and control the aircraft, and were able to get it to a 
runway in Sioux City, IA. Although 110 people were killed that day, the 
deaths of 186 people were averted due to the experience of fifty-nine 
year old Captain Al Haynes and his crew. In subsequent simulator tests 
other DC-10 crews were unable to repeat the effort of the crew of 
Flight 232. Investigators concluded that, in its damaged condition, it 
was not possible to land the aircraft on a runway. Al Haynes was forced 
to retire that year, not because he had been in a crash, but because 
the FAA told him he was too old.
Congress Should Act Now
    The Committee has before it the solution to the problem. S. 65, 
introduced by Sen. James Inhofe of Oklahoma, and its House companion, 
H.R. 65 introduced by Rep. Jim Gibbons (R-NV) would give those pilots 
the right to continue to work, safely flying passengers to their 
destinations should they chose to do so. In fact, it is our belief that 
safety is actually compromised by requiring our most experienced pilots 
to retire at the peak of their careers.
    Mr. Chairman, the pilots of Southwest Airlines, and all those here 
in uniform today, appreciate your willingness to hold this important 
hearing, and hope that it will be the first step in moving legislation 
to change the FAA's antiquated and discriminatory Age 60 Rule once and 
for all.
    Thank you.

    Senator Burns. Thank you very much, Captain. Now we'll hear 
from Captain Ralph Hunter, President, Allied Pilots 
Association. Thank you for coming today.

  STATEMENT OF CAPTAIN RALPH HUNTER, PRESIDENT, ALLIED PILOTS 
                          ASSOCIATION

    Mr. Hunter. Chairman Burns, Chairman Stevens, Senator 
Pryor, thanks for the opportunity.
    I am Captain Ralph Hunter, President of the Allied Pilots 
Association, representing the approximately 13,000 pilots of 
American Airlines, the world's largest passenger airline. On 
behalf of our members, I thank you for this opportunity to 
testify before this panel in strong support of the current Age 
60 Rule that governs the mandatory retirement age for 
commercial airline pilots.
    In the course of debating a significant change to air 
transportation regulations, our goals should be--first, do no 
harm. Maintaining or increasing the current level of aviation 
safety must be the primary test by which any new regulation is 
judged. Economic and personal considerations should not be 
disregarded, but the annals of aviation and aerospace history 
overflow with examples of the false economy that results by 
giving safety a backseat to other issues.
    Safety concerns gave birth to the Age 60 Rule, and in the 
absence of compelling evidence for change, the Federal 
Government's continuing commitment to aviation safety demands 
the retention of this important regulation. I would submit that 
much of the current support for increasing the mandatory 
retirement age of airline pilots is an economic argument 
masquerading as an age discrimination argument. Along with most 
of our Nation's commercial pilots, APA pilots have also 
suffered the financial pains of an industry in turmoil. Despite 
this deep concern, we should not contemplate a change to the 
current retirement rule in the absence of clear and convincing 
evidence that safety is not compromised. Mandatory retirement 
ages are not discriminatory when tied to a bona fide 
occupational qualification.
    Both the U.S. Court of Appeals, and the U.S. Supreme Court 
have repeatedly denied challenges to the Age 60 Rule based on 
this doctrine. Many other professions responsible for the 
public's health and safety, such as law enforcement, 
firefighting, air traffic control, and even the military impose 
some form of mandatory retirement age. Recognizing this 
important public policy, Congress passed an exemption to the 
Age Discrimination in Employment Act in 1996, allowing state 
and local governments to set mandatory retirement ages as low 
as 55 for public-safety employees. It's simply good public 
policy for individuals in safety-sensitive professions to 
conclude their careers before the natural process of aging 
becomes a problem.
    We all recognize that whenever mandatory retirement is 
based on a fixed chronological age, some workers may well be 
physically capable of continuing their careers for some unknown 
period. However, current medical technology does not provide a 
safe and reliable method to make that determination, and the 
use of a fixed, chronological age has proved to be a fair and 
effective standard. Even the opponents of the Age 60 Rule 
tacitly admit this fact by merely requesting an increase--and 
not elimination--of the mandatory retirement age.
    The question then becomes what is the appropriate age for a 
pilot to retire before the inevitable effects of aging become 
too high risk? This question has been repeatedly asked, 
studied, and answered over the Rule's 46-year history. While 
opponents of the Age 60 Rule would accuse the FAA of ancestor 
worship, the reality is that as recently as 1994, the FAA made 
a significant rule change for certain commercial flight 
operations that actually reduced the retirement age for some 
pilots as part of its One Level of Safety program.
    One of the most recent and comprehensive surveys of the 
medical basis for the Age 60 Rule was published in January of 
2004, by the Aerospace Medical Association. I've included the 
report as an attachment with my written remarks. Let me quote a 
few of the key findings from the AsMA study, ``Physiological 
studies consistently show age-related declines in hearing, 
vision and motor skills. Pilot cognitive performance has been 
shown to generally decline with age. A recent simulator study 
of age and pilot performance found that increased age was 
significantly associated with decreased aviator performance. 
Increased pilot experience does not appear to alter the typical 
age-related declines found in many cognitive skills.''
    While opponents of the Age 60 Rule regularly cite this same 
report as concluding that there's insufficient medical evidence 
to support pilot restrictions based strictly on chronological 
age, the study also demonstrates how incredibly difficult and 
expensive it would be to develop another set of criteria. 
Quoting from the study's summary, ``A transition to a 
criterion-based process for determining a pilot's fitness to 
fly beyond age 60 would require extensive additional research. 
The economic burden on the FAA and corporations to develop a 
non-age safety basis for denying pilots continued employment 
could be significant.''
    Despite the report's support for a shift away from an age-
based retirement standard, it presented no viable alternative 
with a substantiated capability to maintain the current level 
of aviation safety, with available medical technology. It's 
significant to note that a majority of commercial airline 
pilots support the existing policy. More than 80 percent of APA 
members supported the Age 60 Rule in a survey we conducted a 
few years ago. The Air Line Pilots Association recently re-
affirmed its support for age 60 retirement, and the FAA has 
stated its desire to maintain the status quo. I believe it 
would be a grave error to disregard the voices of those closest 
to the trenches in this debate. We are frequent observers of 
the very real impact of aging on pilot skills. While we know 
that nothing magical occurs at age 60 years and 1 day, to make 
a previously competent pilot unsafe, we're also keenly aware of 
the inevitable impact of aging on pilot skill, and the near 
impossibility of clearly defining the acceptable limit of that 
decline with current medical technology.
    Our position is firm--the Age 60 Rule is a well-established 
safety regulation substantiated by medical science, and re-
affirmed repeatedly by the FAA and the courts. Despite the 
apparent arbitrariness of using a fixed, chronological age, the 
Rule has actually performed its mission quite effectively for 
more than 46 years. We concede that there very well may come a 
day when conclusive data exists that supports a replacement for 
the Age 60 Rule. However, that data does not currently exist, 
and the Federal Government's commitment to aviation safety 
demands that the current rule be retained.
    I thank the Committee for the opportunity to speak on 
behalf of the 13,000 pilots that APA represents, and I'll be 
glad to answer any questions.
    [The prepared statement of Captain Hunter follows:]

        Prepared Statement of Captain Ralph Hunter, President, 
                       Allied Pilots Association
    Mr. Chairman and members of the Committee, I am Captain Ralph 
Hunter, President of the Allied Pilots Association (APA) representing 
the approximately 13,000 pilots of American Airlines--the world's 
largest passenger airline. On behalf of our members, I thank you for 
this opportunity to testify before this panel in strong support of the 
so called ``Age 60 Rule'' that governs the mandatory retirement age for 
commercial airline pilots.
    In the course of debating a significant change to air 
transportation regulations, our goal should be, ``First, Do No Harm.'' 
Maintaining or increasing the current level of aviation safety must be 
the primary test by which any new regulation is judged. Economic and 
personal considerations should not be disregarded, but the annals of 
aviation and aerospace history overflow with examples of the false 
economy that results by giving safety a back seat to other issues. 
Safety concerns gave birth to the Age 60 Rule, and in the absence of 
compelling evidence for change, the Federal Government's continuing 
commitment to aviation safety demands the retention of this important 
regulation.
    I would submit that much of the current support for increasing the 
mandatory retirement age of airline pilots is an economic argument 
masquerading as an age discrimination argument. Along with most of our 
Nation's commercial pilots, APA pilots have also suffered the financial 
pains of an industry in turmoil. Despite this deep concern, we should 
not contemplate a change to the current retirement rule in absence of 
clear and convincing evidence that safety is not compromised.
    Let's be perfectly clear on one point--mandatory retirement ages 
are not discriminatory when tied to a bona fide occupational 
qualification (BFOQ). Both the U.S. Court of Appeals and the U.S. 
Supreme Court have repeatedly denied challenges to the Age 60 Rule 
based upon this doctrine. Many other professions responsible for the 
public's health and safety, such as law enforcement, firefighting, air 
traffic control, and even the military impose some form of mandatory 
retirement age. Recognizing this important public policy, Congress 
passed an exemption to the Age Discrimination in Employment Act (ADEA) 
in 1996, allowing state and local governments to set mandatory 
retirement ages as low as 55 for public safety employees. It is simply 
good judgment for individuals in safety-sensitive professions to 
conclude their careers before the natural process of aging becomes a 
problem. We all recognize that whenever mandatory retirement is based 
upon a fixed chronological age, some workers may well be physically 
capable of continuing their careers for some unknown period. However, 
current medical technology does not provide a safe and reliable method 
to make that determination, and the use of a fixed chronological age 
has proved to be a fair and effective standard. Even the opponents of 
the Age 60 Rule tacitly admit this fact by merely requesting an 
increase--and not elimination--of the mandatory retirement age.
    The question then becomes, ``What is the appropriate age for a 
pilot to retire before the inevitable effects of aging become too high 
a risk?'' This question has been repeatedly asked, studied, and 
answered over the Rule's 46-year history. While opponents of the Age 60 
Rule would accuse the FAA of ancestor worship, the reality is that as 
recently as 1994, the FAA made a significant rule change for certain 
commercial flight operations that actually reduced the retirement age 
for some pilots as part of its ``One Level of Safety'' program.
    One of the most recent and comprehensive surveys of the medical 
basis for the Age 60 Rule was published in January of 2004, by the 
Aerospace Medical Association (AsMA), and I have included their report 
as an attachment with my written remarks. Let me quote a few of the key 
findings from the AsMA study:

  <bullet> ``Physiological studies consistently show age-related 
        declines in hearing, vision, and motor skills.''

  <bullet> ``Pilot cognitive performance has been shown to generally 
        decline with age.''

  <bullet> ``[A] recent simulator study of age and pilot performance 
        found that increased age was significantly associated with 
        decreased aviator performance.''

  <bullet> ``Increased pilot experience does not appear to alter the 
        typical age-related decline found in many cognitive skills.''

    While opponents of the Age 60 Rule regularly cite this same report 
as concluding that there is insufficient medical evidence to support 
pilot restrictions based strictly on chronological age, the study also 
demonstrates how incredibly difficult and expensive it would be to 
develop another set of criteria. Quoting from the study's summary, ``A 
transition to a criterion-based process for determining a pilot's 
fitness to fly beyond age 60 would require extensive additional 
research. The economic burden on the FAA and corporations to develop a 
non-age safety basis for denying pilots continued employment could be 
significant.'' Despite the report's support for a shift away from an 
age-based retirement standard, it presented no viable alternative with 
a substantiated capability to maintain the current level of aviation 
safety with available medical technology.
    It is significant to note that a majority of commercial airline 
pilots support the existing policy. More than 80 percent of APA members 
supported the Age 60 Rule in a survey we conducted a few years ago. The 
Air Line Pilots Association (ALPA) recently reaffirmed its support for 
Age 60 retirement, and the FAA has stated its desire to maintain the 
status quo. I believe it would be a grave error to disregard the voices 
of those closest to the trenches in this debate. We are frequent 
observers of the very real impact of aging on pilot skills. While we 
know that nothing magical occurs at age 60 years and 1 day to make a 
previously competent pilot unsafe, we are also keenly aware of the 
inevitable impact of aging on pilot skill, and the near impossibility 
of clearly defining the acceptable limit of that decline with current 
medical technology.
    Our position is firm: The Age 60 Rule is a well-established safety 
regulation substantiated by medical science and reaffirmed repeatedly 
by the FAA and the courts. Despite the apparent arbitrariness of using 
a fixed chronological age, the Rule has actually performed its mission 
quite effectively for more than 46 years. We concede that there very 
well may come a day when conclusive data exists that supports a 
replacement for the Age 60 rule. However, that data does not currently 
exist, and the Federal Government's commitment to aviation safety 
demands that the current rule be retained.
    I thank the Committee for the opportunity to speak on behalf of the 
13,000 pilots that APA represents, and I will be glad to answer any 
questions.

    Senator Burns. Thank you, Captain. Now, Captain Al Spain, 
Senior Vice President of Operations, JetBlue Airways.

     STATEMENT OF CAPTAIN AL SPAIN, SENIOR VICE PRESIDENT, 
            OPERATIONS, JetBlue AIRWAYS CORPORATION

    Mr. Spain. Chairman Burns, Senator Stevens, Senator Pryor, 
on behalf of my 8,500 ``crewmembers'', which we call all of our 
employees at JetBlue, particularly my 1,000 pilots, I would 
like to thank you for the opportunity to testify today on this 
issue of mandatory retirement age for airline pilots.
    As we've heard, we currently operate under this rule that 
requires pilots flying under Part 121 of the Federal Aviation 
Regulations to abandon their cockpit flying duties by their 
60th birthday. JetBlue pilots and the leadership oppose the 
current mandatory retirement age rule for many reasons, but 
most importantly, it's just simply wrong.
    JetBlue, in its five and a half years of operation, has 
achieved the Department of Transportation rank of a major 
carrier. We built the company, and we conduct our operations 
daily based on five simple values: safety, caring, integrity, 
fun, and passion. Safety is our leading value, and if I thought 
for one second that changing the mandatory retirement age would 
negatively impact safety, I would not be asking for a change 
today.
    If safety were the true basis for this rule, we would not 
be seeing business and world leaders traveling around the world 
in complex jet aircraft operated by private corporations and 
international airlines, while being flown by pilots over the 
age of 60. Yet, today these experienced aviators are safely 
delivering their passengers to points far and near.
    Also, it's interesting that the first commercial vehicle to 
go into space and return was under the command of a 63-year-old 
pilot. These over-age 60 pilots also enjoy the support of both 
the National Institutes of Health and the Equal Employment 
Opportunity Commission, who find no way to support the Age 60 
Rule.
    JetBlue would never discriminate in its hiring policies, so 
in our short life, we have recruited a significant number of 
pilots in their mid- to late-50s, hired because of their 
tremendous experience, and their maturity. We've seen four of 
these pilots--myself included--forced from flying revenue 
customers under the Age 60 Rule. But what's most important is 
that these JetBlue pilots, these four pilots, are still flying. 
Because under Part 91, they still fly the same airliners that 
they flew before their 60th birthday. Like their younger pilot 
colleagues, they still take, and pass, their semi-annual FAA 
flight physical exams. They still attend and successfully 
complete the FAA-required ground school, and proficiency 
checks. They're still observed by both FAA inspectors, and 
JetBlue check airmen. If the Age 60 Rule were based on safety, 
we simply wouldn't be doing this now. Our corporate values 
would not allow us to disregard an individual's decades of 
valuable experience as a result of an arbitrary and outdated 
rule.
    The proposals in S. 65, while not requiring a return to the 
cockpit for someone over 60, would at least give the 
opportunity to take this experience, maturity, and safety back 
into the cockpit at the discretion of the carrier. 
Additionally, by continuing to fly over age 60, the pilots 
would be able to earn wages, pay taxes, contribute to their 
retirement plans, and close the gap between the age at which 
they stop flying, and the age at which they are eligible for 
Social Security and Medicare benefits. The current 5-year gap 
can be quite problematic for pilots forced from the cockpit at 
age 60.
    Simple summary--JetBlue believes that each pilot should be 
judged on the basis of his or her ability to fly, their 
competency, and their abilities, not on an unsubstantiated and 
outdated rule giving a specific date. We strongly support 
Senator Inhofe and Congressman Gibbons, both fellow pilots, and 
thank them for their tireless work on this important issue. We 
urge the Committee to move to do its part to make S. 65--a bill 
to amend the age restriction for pilots--the law of the land. 
Safety is the basis for our concern.
    Thank you, Mr. Chairman, for the opportunity to testify.
    [The prepared statement of Captain Spain follows:]

    Prepared Statement of Captain Al Spain, Senior Vice President, 
                Operations, JetBlue Airways Corporation
    Chairman Burns, Ranking Member Rockefeller, and distinguished 
members of this Subcommittee. On behalf of my 8,500 JetBlue Airways 
Crewmember colleagues and, in particular, my 1,000 pilot colleagues, 
thank you for the opportunity to testify today on the important issue 
of the mandatory retirement age for commercial airline pilots.
    Today, under a rule first enacted in 1959 by the Federal Aviation 
Administration (FAA), pilots flying commercial aircraft under Part 121 
of the Federal Aviation Regulations must retire by their 60th birthday. 
Since its enactment more than forty-five years ago, this rule has been 
the source of great debate, and at no time has it been of more intense 
debate than today.
    JetBlue and its pilot corps oppose the current mandatory retirement 
age rule for many reasons. However, as I will explain below, the 
principle reason is that it is simply wrong.
    JetBlue, established in 2000, has already achieved the Department 
of Transportation (DOT) rank of a ``major'' carrier--the quickest this 
status has ever been achieved by an airline in the United States. 
JetBlue was built on five simple values: Safety, Caring, Integrity, 
Fun, and Passion--with Safety always first and foremost in all that we 
do. These five values are the foundation of our airline, and all of the 
blocks on which JetBlue are built are consistent with these values. 
With 77 aircraft today, growing to 91 by year's end, JetBlue's safety 
value lights the path for our continued controlled-growth.
    In keeping with our safety value and our integrity value, JetBlue 
has stood on the sidelines and watched as several key pilot leaders 
have been removed from active flying as a result of the Age 60 Rule. 
This alone, and not any previous or pending economic impact to our 
healthy bottom line, is why I am here today. JetBlue has been 
profitable for 17 successive quarters at a time when 100,000 airline 
employees have lost their jobs, several carriers are in bankruptcy and 
others openly discuss bankruptcy. As an officer of JetBlue, a pilot who 
has been forced to retire under the Age 60 Rule, and as the leader of 
our pilot corps, this is a wrong that Congress now should right. Both 
S. 65, along with H.R. 65, are the means by which to do so.
    In 1959, the FAA promulgated its rule based on the ``medical 
facts'' of the day. It was believed then, and relied upon as the 
primary basis for the Rule itself, that ``significant medical defects'' 
resulted from the progressive deterioration of physiological and 
psychological functions which occur normally with aging. These supposed 
``facts'' from the last century are anything but accepted facts today, 
and the Rule based on these ``facts'' amounts to pure 21st century age 
discrimination.
    The facts of 2005 weigh in favor of eliminating the Age 60 Rule. As 
far back as 1985, The National Institutes of Health testified before 
the House Select Committee on Aging that the National Institute of 
Aging (part of the NIH) could no longer support the FAA's retention of 
the Age 60 Rule. Similarly, the Equal Opportunity Employment Commission 
(EEOC) has held that the FAA Age 60 Rule violates the Age 
Discrimination in Employment Act of 1968. In the private sector, the 
EEOC has successfully ensured that private companies eliminate rules 
that required their pilots retire at age 60.
    In the Senate, one of your most distinguished former colleagues, 
Ohio's John Glenn, at age 77, flew for 9 days in space. More recently, 
the first manned commercial vehicle to travel to space and back was 
piloted by test pilot Mike Melvill, winner of the X Prize, at age 63. 
Mr. Melvill, despite worldwide acclaim resulting from his historic 
achievement, would be barred by the law were he to try flying for 
JetBlue. Further, the American Association for Retired People, on 
behalf of their 35 million members over age 50, strongly supports H.R. 
65 and S. 65.
    Throughout the developed world, the United States stands nearly 
alone by mandating retirement of pilots at age 60, with the notable 
exceptions of France and China. Most nations permit pilots to fly until 
age 65, such as Japan and Israel, and the European Joint Aviation 
Authority recently raised their age limit to 65 for commercial pilots. 
The International Civil Aviation Organization (ICAO), too, has 
recommended that member states, including the United States, adjust to 
a maximum age of 65 for commercial pilots.
    All JetBlue pilots, whether age 40 or age 59, must undergo rigorous 
FAA medical screening procedures to ensure they are fit to fly. This 
includes a semi-annual physical exam and, after age 40, an annual 
electrocardiogram. Beyond medical screening, all pilots must 
successfully pass a simulator training flight check twice yearly. Such 
testing ensures awareness and thorough knowledge of procedures, 
systems, piloting skills, and the ability to safely manage emergency 
scenarios. These tests, which ensure the mental and physical health of 
pilots, are in addition to random in-flight check rides performed by 
both FAA inspectors and JetBlue check airmen. Almost no worker in 
America has more oversight when it comes to their medical ability and 
competency to fly, and no one has more of an incentive to maintain 
safety for the flying public than airlines' themselves.
    Finally, in the current economic environment faced by most 
airlines, thousands of pilots have lost their jobs. Equally 
unfortunate, for many still employed, they have seen their pension 
plans virtually eliminated. Thus, while not at issue at JetBlue where 
we have defined contribution plans, many pilots must retire from flying 
at age 60 and they do not collect Social Security until age 65. The 
proposals in S. 65 would allow these experienced pilots to continue 
fly, earn wages and contribute to their pension plans.
    In this regard, JetBlue has only had a small number of pilots 
removed from the cockpit due to the Age 60 Rule. Of our more than 1,000 
pilots, these few pilots have all remained employed as active 
crewmembers, some flying non-revenue flights, some teaching, and some 
serving as members of our leadership team. JetBlue's values simply 
cannot allow us to disregard an individual's decades of valuable 
experience merely because of an outdated rule. Not only does our 
airline benefit from the wisdom attained through decades of experience, 
but these pilots remain active contributors to their own retirement 
savings. This benefits JetBlue, our pilots and all taxpayers.
    JetBlue believes that each pilot should be judged on the basis of 
his or her ability to fly and their competency--not an unsubstantiated 
rule based on outdated and mistaken medical assumptions. We strongly 
support Senator Inhofe, and Congressman Gibbons, both fellow pilots, 
for their tireless work on this important issue, and urge this 
Committee to make S. 65, a bill to amend the age restrictions for 
pilots, the law of the land.
    Thank you, Mr. Chairman, for today's opportunity to testify.

    Senator Burns. Thank you, Captain. Senator Stevens has an 
appointment coming up and wants to ask a couple of questions.
    Senator Stevens. Mr. Chairman, thank you very much, let me 
correct the record, I said there were 750 of our 10,000 pilots 
were commercial, and over 55--it's 2,000, 2,000 of our 10,000 
pilots are commercial and over 55. It's a difficult problem for 
us.
    Let me just ask each of you this, you mentioned a series of 
polls taken, do you know the average age of those people you 
polled, Captain Woerth, do you know it?
    Mr. Woerth. I don't have the age of the poll, or the 
average age, or the median age of the entire pilot group, I 
could probably get that for you.
    Senator Stevens.--relate the age to the polls?
    Mr. Woerth. Throughout the polling process, especially as 
to the random telephone poll, was randomly stratified to take 
out sampling errors that were biased one way or another.
    As to the survey, anytime you do a survey, it's voluntary, 
and we had a high number of participants, particularly over the 
age of 56, and so we actually had more older people, 
participating for their own interests that you'd expect in a 
democratic organization.
    Senator Stevens. How about you, Mr. Eichelkraut?
    Mr. Eichelkraut. I don't have the exact numbers, sir, but I 
would believe around 45 or 46 years old is the average age of 
the respondent.
    Senator Stevens. Captain Hunter?
    Mr. Hunter. I don't have the breakout, sir, the last poll 
we did was----
    Senator Stevens. Captain Spain?
    Mr. Spain. In all of our polls with the pilots, we've had 
about an 80 percent response in our pilot, the thousand pilots 
we have, the average age is, I believe it's 48.
    Senator Stevens. Captain Hunter, you mentioned in your 
letter to us that a sizable number of these people are 
furloughed at the present time, how great is that number?
    Mr. Hunter. We're sitting at just under 3,000 pilots on 
furlough from American Airlines.
    Senator Stevens. Do you know, Captain Woerth, what the 
furlough rate is for your organization?
    Mr. Woerth. A little over 5,000 members of ALPA are 
furloughed.
    Senator Stevens. OK, and pilot fatigue, you mentioned, 
Captain Hunter, wasn't it?
    Mr. Hunter. That was, I believe it was Captain Woerth that 
testified.
    Senator Stevens. You, Captain Woerth, you say we've ignored 
it, ignored that issue?
    Mr. Woerth. No, I'm saying that the Federal Aviation 
Administration had put forward some notice of proposed 
rulemaking almost 10 years ago, because it was recognized--they 
had NASA studies--that they thought the flight time and duty 
time regulations, particularly as to the length of the duty 
day, were antiquated and needed revisions, based on a study by 
NASA. Nothing's really come of that in almost 10 years, and 
what I was referring to is, it wasn't just pay concessions that 
pilots were taking, a lot of the work rules, frankly, were 
better than FARs had been mitigated, and so many of those 
pilots--many of those in the room today--are flying more hours, 
longer hours, and longer duty days, and I certainly think the 
struggle we've had maintaining even the minimum standards, such 
as the 16 Hour Rule, which we have a tremendous fight with in 
and around the FAA, the 16 hours, those kind of hours which are 
becoming more and more routine, not the exception, are adding 
to pilot fatigue, so no matter what the age, this isn't just a 
function of, I'm 57, I feel a little more tired than I did when 
I was 35, it is an issue even for a 35-year-old, I think 
fatigue needs to be looked at by the Federal Aviation 
Administration.
    Senator Stevens. Well, I flew transports in World War II, 
and I'll tell you, fatigue wears me a hell of a lot more than 
age does. I'd be very pleased to work with you on a fatigue 
thing, see if we can't get someone to really take a good long 
look at that, that is more dangerous to any passenger, in my 
opinion, than age. Thank you, Mr. Chairman.
    Senator Burns. For the record--the 16 Hour Rule, explain 
that to me, would you, please?
    Mr. Woerth. Yes, sir, Mr. Chairman, for quite some time 
there was a controversy over, if it, was 16 hours really a 
limit, or was that just a scheduling goal, and we finally had 
to get a ruling, and work with the APA, in particular, on this, 
it was known as the ``Whitlow Letter,'' a person out of the FAA 
finally determined at 16 hours you are done, a pilot cannot get 
back in a cockpit and fly just because the airline was running 
late, or somebody wants to continue the march, the 16 hours is 
the real limit. The fact that that's twice the normal day--that 
might have been a midnight shift going until the middle of the 
afternoon the next day, thank God we have the Whitlow Letter, 
but there was still opposition within certain airlines who 
didn't want to live with that, they wanted even more hours to 
be flown, or a duty day to be even longer than that.
    Senator Burns. Let me, after you're, say you've been on 
duty for 16 hours, now is that 16 hours in the air?
    Mr. Woerth. Doesn't have to be in the air, that's from 
report to release, you might have had a break, you might be in 
Chicago, you might be in Atlanta----
    Senator Burns. And then you're done until when?
    Mr. Woerth. Well, there's a rest requirement after that 
that varies depending on the rest of your schedule, but you at 
least have 10 hours off.
    Senator Burns. I was going to ask you about how many pilots 
that are laid off now, or that have been furloughed, and you 
know, there for a little while, we had a big shortage of 
pilots, in fact, it wasn't very long ago we were having 
hearings on how to get more trained pilots and get them into 
the air, and some of those were moving up from local carriers, 
local service areas, and so I think my question is a little out 
of whack, but we've been contacted about an agreement that you 
have with Jazz, a Canadian air carrier, which allows pilots to 
sign and work until 65. Why are you supportive of this in 
Canada and not in the United States? I guess you're kind of 
going with your poll, I understand your position, but why would 
that be?
    Mr. Woerth. Yes, Mr. Chairman, when we actually merged with 
pilots in Canada in 1997, we had a major merger when we took 
over a number of pilots within Canada. Air Canada Jazz was a 
group of regional carriers that happened to be in that group, 
there are other Canadian carriers we represented as well.
    Part of our merger agreement with the Canadian pilots was 
stuff that affected, that was set by Canadian law. If it was by 
Transport Canada, or by the Canadian Parliament, under our 
merger agreement, they would be able to deal with their 
government, make the decisions for Canadians, not have the 
United States laws imposed upon them. As you probably realize, 
that in Canada, it is one of those nations that does not have 
the Age 60 Rule, so the state licensing standards of Canada are 
different. So, I had no trouble recognizing that, and since 
they're allowed to do it under Canadian law, I wasn't prepared 
to become involved in an age discrimination suit myself, so, 
their law permits it, so their contract permits it.
    Senator Burns. We've all been involved in this debate for 
some time, and I'd like to have your response--all of you--to 
this. Do you think it's more about economics, or is it more 
about safety? Yes, sir, Mr. Eichelkraut?
    Mr. Eichelkraut. It's about economics, sir.
    Senator Burns. How do you base that?
    Mr. Eichelkraut. Well, I believe that if it were truly 
about safety, that we'd look at the individual's medical 
requirements, medical qualifications, and his operational 
qualifications, and determine whether or not he's fit to fly 
Part 121 based on those credentials, not on an age issue.
    The economic side of the house is a piece that's very 
interesting, we come from--I come from a company that has a 
defined contribution retirement plan, and as such, the longer 
we can work, the longer we can contribute to it. Some of my 
compadres up here have varying forms of that, or possibly not 
that, and a defined benefit plan, and we all know there's 
stress under that, but I think economically there's some 
direction being driven by the fact that they have a defined 
benefit plan, but the contracts between labor and management 
have wound these contracts into being for such a long time. So, 
I actually think that there's probably a reluctance to see a 
real change, because that might force an unwinding of some of 
these contracts and these issues to be addressed.
    Senator Burns. Anybody else have a comment on that 
question?
    Mr. Hunter. I would like to.
    Senator Burns. Captain Hunter?
    Mr. Hunter. I think it's an interesting question, Mr. 
Chairman, because I think it depends on precisely who you ask. 
I testified, and believe, that this is an economic argument 
masquerading as an age discrimination argument. I believe very 
strongly, based on the feedback from my pilots, which have not 
wavered over the course of the last 14 years that we've been 
surveying them, have been very close 12 years ago to what they 
were 2 years ago. I might add, 2 years ago they suffered some 
pretty significant economic losses, and continued to believe 
that the Age 60 Rule should remain in place. So, clearly from 
my perspective it's a safety issue, but I do believe that other 
arguments are being made for economic reasons.
    Mr. Spain. Mr. Chairman, I don't think that we're asking 
for the change based on economics, because our pilots, like 
Southwest, have a defined contribution plan, and I think we 
look at it more from a safety aspect and allowing a pilot to 
fly also, to eliminate just the absolute age 60 as a 
discriminatory thing, if we participate in testing and get 
facts and data, we certainly don't mind doing that if we have a 
way, a mechanism to go beyond the age 60.
    Mr. Woerth. Mr. Chairman, I guess I would say that all of 
those factors would come into play, and as the Senate deals 
with so many issues in our country, whether social issues or 
economic, there's no clear line of demarcation. It is clear to 
me that, as we broke out our survey of the 41 airlines we 
represent, certainly those that have recently lost their 
pensions whether they were at United or US Airways, certainly 
the values in that pilot group for reasons all of us can 
understand, were different than for example, Federal Express or 
different for Delta. I don't really have a baseline that is 
reliable from our previous national survey, but clearly, and 
another thing that is clear, Mr. Chairman, when I was 28 and I 
got hired out of the military, I wasn't paying a lot of 
attention to this argument, ALPA happened to be on the other 
side of it. One thing that I've noticed in my many years of 
being a pilot representative, is that at 40 you need glasses, 
at 50 you decide to probably think about the Age 60 Rule 
differently, and clearly our statistics are clear that once you 
reach age 56, whether you lost your pension or not, pilots feel 
differently about the Rule, I don't think anybody should be 
surprised, that's human nature, all the factors that go through 
the pilot's mind as he progresses through his career, they 
weigh all of those things differently. And so we just try to do 
the best we can being transparent, and represent our members' 
majority interest, and I thank you for holding this hearing so 
we can express it.
    Senator Burns. I don't walk on very many airplanes, I just 
got a letter the other day, I hit two and a half million miles 
with Northwest, which means the only thing you get done in this 
job is your wear out airplanes and the seat of your pants, 
where I don't say hello to the pilots and strike up 
conversation, because we're going to reauthorize FAA next year, 
changing technologies means we're going to have to change some 
ideas in the FAA and controller safety, new technology has 
given us maybe a little bit of leeway where we can narrow up 
our separation a little, and operate safely, but I take very 
seriously the advice of the people, the men and women that are 
flying those planes, so I talk to them a lot.
    Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    Mr. Spain, I'd like to start with you, if I may.
    Mr. Spain. Sure.
    Senator Pryor. I know that you are advocating changing the 
Age 60 Rule, and at the same time, as I understand it, you're 
advocating changing some FAA rules and regs that would allow 
pilots to fly coast to coast, and back again in the same work 
period, is that correct?
    Mr. Spain. What we asked is that we be able to gather facts 
and data, and get research on specifically, the duty time 
limitations, and to see what facts and data are, rather than 
the 8 hour rule, in domestic operations. Yes, sir.
    Senator Pryor. Well, I just wonder if those two positions 
that you're taking are consistent with keeping the highest 
possible standard of air safety. In other words, I guess I'm 
asking, do you think these two policy changes that you're 
pursuing will enhance air safety?
    Mr. Spain. I think so, sir, because we're asking for facts 
and data, we're asking to find a way to get something other 
than an arbitrary rule in duty time, in flight time 
limitations. And if we have facts and data, the same thing, in 
age, finding the facts and data beyond age 60 for airline 
pilots, which there are none, because no one's flown beyond age 
60, and all we ask is a way to do testing under the auspices of 
an accredited agency, or NASA, or someone, to get the facts and 
data about duty time limits, exactly what Captain Woerth's 
talking about. I agree with a duty time limit, I absolutely do. 
We just don't know what that is, because today in the 
international flight rules in the U.S. you can fly longer than 
you can in domestic rules, same airplane, same crew. We'd just 
like to have the facts and data to make a good decision on 
whether we should look at a duty time limit rather than a 
number of flight hours limit, in other words, back to the 16-
hour rule we were talking about a while ago.
    Senator Pryor. OK, I appreciate that explanation, but do 
you understand how an ordinary reasonable person might look at 
your policies and say you are in favor of an older population 
flying your aircraft, and also want them to be able to fly 
longer in the same duty period.
    Mr. Spain. Only if we have facts and data to support it.
    Senator Pryor. But in order to get the facts and data----
    Mr. Spain. We would have to do testing, we'd have to find a 
way to test.
    Senator Pryor. In other words, you would have let your 
pilots fly.
    Mr. Spain. We'd have to find a way to do that, yes, sir.
    Senator Pryor. Let me just ask, sort of the panel, 
generally, and I'm just going to throw these open, and I'm not 
saying everybody has to answer, but if you want to, I'd love to 
hear your answers on this. I want to focus a little bit on the 
economic ramifications of changing the Rule, and some of you 
covered this a little bit in your statements, but how would 
extending the age limit beyond 60 years impact younger and mid-
level pilots, in terms of their opportunities for career 
advancement?
    Mr. Eichelkraut. What I found is pilots who have not made 
captain yet or on a narrow-body airplane would like to 
continue, I think everybody wants the upgrade opportunities. In 
the near-term that might restrict overtime but it will all 
equalize itself out. Normally growth opportunities are what get 
pilots jobs, not retirements. I've always based, promotions 
come when airlines are successful and grow. They can't rely on 
pilots to retire to be successful in the airline business.
    Senator Pryor. Anybody else?
    Mr. Woerth. Senator, the question is a good one because it 
identifies the fact that there might be some differences of 
opinion based on demographics. And I agree there are, and in 
fact I think the ALPA survey or poll indicated that to be, in 
particular, the case. The older guys want the Rule to be 
extended, and the younger guys want to keep it in place. But 
there's an assumption in that statement, and it has to do with 
a static environment. A lot of us joined our airlines with the 
hopes that it stays solvent, that it continues for years and 
years that over the years we'll progress up. The advantages of 
working a little bit longer apply to everyone who is in that 
static environment, so that an individual might be, in this 
case, a first officer in our airline, he might have to wait an 
extra year or two to upgrade him, but on the outside years, he 
would have the extra number of years to contribute to his 
personal finances or retirement, those issues. One of the 
issues that comes along, also with this question is for those 
people who are furloughed, and raising the age for those 
individuals, in that case, gives them an opportunity to maybe 
be employed elsewhere. There's no guarantee that those 
individuals are ever going back to those carriers they came 
from, and it gives them an opportunity to work a little longer 
somewhere else rather than start over.
    Mr Hunter. Yes, I think it is a very good question, 
Senator, certainly the facts that, again, it's a question of 
who you ask the question, and I think one thing we can probably 
all agree on in our profession is that timing is everything, if 
you're hired at the beginning of an economic boom, you're 
destined to have probably a very different career than if 
you're hired at the tail end of it, and certainly that has been 
a cycle in the piloting profession as I've observed it, and I 
do have 3,000 pilots on furlough and Captain Woerth mentioned 
this as well, who obviously have a very different view of this 
issue, because the perception is that this rule negatively 
impacts their economics as well.
    Senator Pryor. When you talk about negatively impacting 
their economics, certainly they get their paycheck when they're 
flying, but what about their pensions? Is this, changing the 
Age 60 Rule would it impact the pension situation with the 
airlines?
    Mr. Woerth. The current crisis we're facing in the defined 
benefit plan which is being looked at in both the House and the 
Senate, because that crisis is the money that's already earned 
and already owed, and so no matter what happens later, that 
does not resolve the debited deduction contributions that are 
currently required. Certainly, a change in it would not affect 
their pension, but it would allow people to work longer to 
recover some of the money they lost. We've also had issues 
we've tried to deal with. Senator Akaka and others have 
introduced legislation for the terminated pension plans, 
relating to pensions plans, the maximum a pilot can receive, 
which is now $29,000 as opposed to other workers at $45,000 
could be corrected, and we've always acknowledged that it has 
been tough for pilots for a long time to have a gap between 
Social Security and the retirement age, whether they've lost 
their pension or not. And that's been unfair for pilots for 
some period of time.
    Senator Pryor. Also, staying on the economics of all this, 
when pilots right now hit age 60, does that mean they are 
necessarily out of a job, or do you have places for them 
elsewhere in the companies? Or the industry?
    Mr. Woerth. Some companies do provide opportunities in the 
training departments, or other places where they're not flying 
Part 121 operations and other regulations that allow that, but 
the union doesn't provide that, it's certainly a management 
decision, we're not involved with it.
    Mr. Eichelkraut. There are very limited positions in that 
regard, I'd also like to bring up the issue that these pilots 
who are retiring at 60 have been trained in Part 121 
operations, and are well versed in that area and that 
experience they're not allowed to pursue any longer, so are 
there other jobs in the aviation industry? Certainly there are, 
you can start over in other places, et cetera, but you 
certainly aren't doing exactly the same thing you were trained 
to do, up for sometimes 35 years.
    Mr. Spain. As I mentioned, we are small and we are growing, 
and we have the need for the pilots to operate our airplanes 
under Part 91, things such as maintenance test flights, 
delivery flights, and positioning flights, and so our pilots 
who have reached 60 are currently still flying with JetBlue.
    Senator Pryor. The last question I have, and maybe the 
Chairman covered this, but I missed the answer, is the 
percentage of pilots who actually hit age 60, I assume a number 
of them retire, or quit, or move onto something else before 
they hit age 60, so what type of numbers or what percentage are 
we talking here?
    Mr. Woerth. Within the ALPA, there's only one group of ours 
that we've tracked with any confidence, and that's Northwest 
Airlines, since 1993 to now, has tracked every retirement, and 
it's the fourth largest airline in the country involved in 
wide-body flying and domestic operations, about 43 percent of 
the pilots retired early, either through medical disability and 
voluntarily, early. And that is out of 1,700 retirements since 
1993.
    Senator Pryor. So, as I understand those statistics, over 
half----
    Mr. Woerth. Forty-three percent, sir. Fifty-seven percent 
do retire at the normal age.
    Senator Pryor. Of 60.
    Mr. Woerth. Of 60, and 43 percent actually retire earlier, 
some disability, some just voluntarily decide to retire.
    Senator Pryor. So, over half actually hit age 60 and are 
forced to retire.
    Mr. Woerth. Yes.
    Senator Pryor. Thank you.
    Senator Burns. I have one more question, one last question. 
If the Age 60 Rule is changed, what other legal or regulatory 
changes should there be? Will this have a ripple effect we have 
to change in some other areas? Does anyone want to comment on 
that?
    Mr. Woerth. You've asked the $64,000 question for most 
airline pilots. What we've certainly found out in our poll, a 
lot of us are good old country boys, too. They don't want to 
buy a pig in a poke, they'd like to know ``what am I voting 
on?'' and what they've asked us is, if everything is going to 
stay the same, that would be one question. But they've watched 
these hearings previously, and heard what the FAA said, they're 
going to change something to have an equivalent level of 
safety, we need to do something, they like to know what that 
``something'' is. And since they don't know, a lot of them 
would like to work longer. I think that has been clear, but 
they would like to know that whatever changes the FAA proposes 
is not a career threat to them, they don't want any additional 
check rides, they don't want to be an astronaut, they don't 
want to take an astronaut's physical just to fly to 
Minneapolis, but they would certainly like to know or have the 
FAA give some indication what they're thinking about, because 
right now we don't know what you're thinking about, and that's 
a concern of those who might change their mind, or those who 
would continue, they don't know what those changes might be.
    Senator Burns. Yes, sir?
    Mr. Eichelkraut. Senator, the ICAO is recommending to go to 
a standard, I know, and one of those requirements they would 
like to see is go to twice a year medical physicals, of course, 
the Class One physical they already do in this country, so I 
wouldn't see a change in that part, what I would suggest 
though, that it would certainly help in changing this age, it 
would certainly help us blend with the rest of the world in 
terms of commerce.
    Senator Burns. Captain Hunter?
    Mr. Hunter. Part of the difficulty in answering that 
question, Mr. Chairman, is, we'd like to see whatever is 
necessary to maintain the current level of safety, our 
difficulty in answering the question well characterizes our 
concern with changing the Rule in the first place, I don't 
think we have a good idea about what would need to be changed 
in order to maintain the level of safety, and that precisely 
characterizes our difficulty with changing the Rule.
    Senator Burns. Captain Spain?
    Mr. Spain. I think as I've mentioned before, I'd really 
like to be able to explore that and get the facts and data to 
know what else would have to be changed, and we'd have to look 
at it in some way to see whether it's test flying, whether it's 
additional medicals, but we need to know what else has to be 
changed, and the only way to do that we need to go get the 
facts and data.
    Senator Burns. I look at it like truck driver, CDLs. In 
other words, if you change it from 60, maybe once you hit that 
60 level you would take a look at hours of service, hours in 
the air, do you require say, the first officer to be under 55, 
or whatever, and I wonder does it lead to other rules and 
regulations that we would have to look at in order to extend 
that age, that's what I'm looking at.
    I think maybe, this is an issue that might have to be dealt 
whenever we reauthorize the FAA next year, and this debate will 
continue, and we may know more about what the economic 
conditions are because we have an obligation, I think, I have 
an obligation to this industry to first, do no harm. And that's 
certainly what we'll base our decisions on. I appreciate your 
testimony, and I appreciate you being very candid about it, 
because I just remarked to Senator Stevens that it's ironic 
that we have the so-called point-to-point carriers wanting it 
extended, the legacy carriers are on the other side of the 
issue, and I'll sort that out one of these days whenever I have 
a little time. But I thank you, anybody who would like to 
submit a closing statement, you're welcome to do that. I see 
that it is almost 5:30, that's not dinner time, but almost is, 
I've never missed a meal yet, nor do I intend to.
    I thank you for your service, and I thank you for testimony 
and being candid with this committee. Thank you very much.
    [Whereupon, at 5:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Today, we are once again weighing the pros and cons of changing the 
commercial airline pilot retirement age in the U.S. This is not a new 
issue, as the Senate has considered the matter on several occasions 
over the past 10 years.
    We must be very careful before taking steps to change the long 
standing Age 60 rule, and make certain that any modification does not 
negatively impact commercial aviation safety in the U.S.
    The Age 60 rule has been in effect and worked well since 1959, to 
ensure that we maintain the highest level of airline safety. The 
Federal Aviation Administration (FAA) has reviewed the Rule numerous 
times, and medical and scientific authorities, including the National 
Institutes of Health (NIH), have studied it repeatedly. To date, no 
research has conclusively determined that repealing the law would 
improve aviation safety.
    Some contend that extending the Age 60 rule will provide economic 
benefits to the aviation industry and the individual pilots. Obviously, 
a rule change would mean that some pilots could extend their earning 
potential for a few additional years, and given that most have had 
their benefits cut, I understand and appreciate their keen interest.
    However, the Air Line Pilots Association (ALPA), the world's 
largest pilots union, voted on this issue recently and rejected the 
proposal, while some of the Nation's major air carriers have expressed 
concerns about how the change would affect their labor costs.
    I believe the current effort to increase the pilot age in the 
current economic environment is particularly untimely. Ever since 
September 11, 2001, the major air carriers have faced pronounced 
financial difficulty and have been forced to furlough thousands of 
airline pilots. Changing the Age 60 rule has the potential to further 
disrupt the careers of more junior pilots and could, quite possibly, 
impact the caliber of America's future aviators.
    While some maintain that the Age 60 Rule is discriminatory, the 
Rule has been reviewed and upheld on numerous occasions by Federal 
courts, concluding that it does not violate age discrimination 
employment law.
    I appreciate the Chairman's commitment to this issue, and I 
understand that there are varying medical opinions regarding the 
appropriate retirement age for commercial airline pilots. However, 
without concrete evidence that the Rule change would improve safety, 
absent a true consensus on the issue, I feel that we must leave air 
safety to the regulatory experts at the FAA.
                                 ______
                                 
Prepared Statement of Airline Pilots Against Age Discrimination (APAAD)
    Airline Pilots Against Age Discrimination (APAAD) is a grassroots 
organization comprised of pilots flying for a variety of airlines 
engaged in Federal Aviation Regulation, Part 121 operations as well as 
other interested parties. As the name of our organization indicates, we 
are opposed to age discrimination. Our goal is to see the elimination 
of the federally mandated, discriminatory regulation known as the ``Age 
60 Rule.''
    Chairman Burns, thank you for revisiting this onerous regulation 
that has been allowed to continue for some 45 years, denying the 
traveling public the safest pilots we have to offer, and denying these 
pilots the right to earn a living in their chosen profession.
    It is obvious to those of us who have studied the origination of 
this rule in 1959, realize that this was a political favor by then FAA 
Administrator, General Pete Quesada, so that his friend, C.R. Smith at 
American Airlines, could fire his older pilots. Subsequent 
Administrators of the FAA have, for some unknown reason, felt compelled 
to defend the first Administrator's back-office deal.
    We have seen a whole industry develop around this notion that the 
older pilot may not be as safe--wasting an untold amount of resources. 
The FAA supports its Age 60 Rule based on psuedo-science and 
theoretical conjecture, and has never proven that the Age 60 Rule 
enhances public safety!
    There have been countless studies and reviews about the Age 60 
Rule, inside and outside of the FAA. The following are some examples of 
these studies.

  <bullet> FAA report number DOT/FAA/AM 94/22, known as the ``Hilton 
        Study.'' ``The results present a converging body of evidence 
        which fail to support a hypothesis that accident rates increase 
        at or about the age of 60 years.''

  <bullet> The John Hopkins School of Medicine study: ``Age, Flight 
        Experience, and Risk of Crash Involvement in a Cohort of 
        Professional Pilots.'' The headline announcing the study 
        results was ``Older pilots OK to fly, study shows.'' Their 
        conclusion was: ``Our study indicates that chronologic age by 
        itself has little bearing on safety performance,'' says Susan 
        P. Baker, co-author of the study and Professor of Health Policy 
        and Management at Johns Hopkins' Bloomberg School of Public 
        Health. ``What really matters are age-related changes, such as 
        health status and flight experience.''

  <bullet> The Aerospace Medical Association (AsMA), after conducting a 
        two-plus year review of the literature concluded; ``. . . that 
        there is insufficient medical evidence and/or accident record 
        to support airline pilot restrictions based on age alone.''

    We have a real world study from Japan.

  <bullet> The Japanese Ministry of Transport allowed 159 airline 
        pilots to fly until age 63 to generate data--a study the FAA 
        has refused to conduct here! The study: ``A 10-Year 
        Retrospective Review of Airline Transport Pilots Aged 60 to 63 
        in Japan.'' Conclusion: ``The review suggests that the aged 
        pilots who are deemed medically qualified by the official 
        notice criteria are flying safely without mishap incidence.''

    The FAA had a chance to gather real world data in the United 
States, when FAR Part 135 pilots past age 60 were grandfathered for 4 
years as they operated under FAR Part 121 in 1995.

  <bullet> Captain Robert Perry, an FAA designated check airman, 
        surveyed a group of these age 60-plus pilots at his airline. 
        These pilots were flying the more rigorous trips in the turbo-
        props and regional jets. This group, whose oldest was 71, flew 
        over 100,000 accident/incident free hours.

    With most of the industrialized world permitting their airline 
pilots to fly past age 60, the body of anecdotal data overwhelmingly 
supports the safety of such operations. In fact, the FAA has a double 
standard when it comes to the Age 60 Rule. The FAA allows age 60-plus 
United States pilots to fly in FAR Parts 91, 125, and 135 in this 
country. The FAA also allows age 60-plus foreign airline copilots to 
fly into this country--which our age 60-plus copilots cannot do.
    The FAA relies on its Civil Aerospace Medical Institute (CAMI) 
reports to justify its position that the Age 60 Rule is safety-based. 
The curious observation is that CAMI Report 4 shows an accident rate 
for pilots younger than 30, 2\1/2\ times higher than pilots in the age 
50 to age 60 group. The obvious question is--If safety is the issue, 
why is there not an ``Age 30 Rule'' to prevent younger pilots from 
flying FAR 121 operations?
    The ghost of General Pete Quesada still occupies 800 Independence 
Avenue. It is time for Congress to exorcise this demon and return 
sanity to this bureaucratic malaise. It is time for Congress to give 
the flying public our most experienced aviators and these aviators a 
chance to earn a living in their chosen profession.
    The best safety device on our Nation's airliners is an experienced 
pilot!
                                 ______
                                 
                                     Southwest Airlines Co.
                                      Washington, DC, July 27, 2005
Hon. Conrad Burns,
Chairman,
Senate Subcommittee on Aviation,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Mr. Chairman,

    On behalf of Southwest Airlines, I request that this letter and the 
attached legal brief be made a part of the formal record for the July 
19th hearing, convened by the Senate Subcommittee on Aviation to 
consider the FAA's controversial ``Age 60'' Rule. The Age 60 Rule 
requires all commercial pilots employed by Part 121 air carriers to 
retire at the age of 60, regardless of individual pilot abilities or 
health conditions.
    The attached brief was filed with the U.S. Supreme Court as a 
``Friend of the Court'' in the case of Butler, et al. v. Federal 
Aviation Administration. The Petitioners in the Butler case challenged 
the FAA's rigid application of the Age 60 rule.
    As is more fully explained in the brief, Southwest Airlines 
maintains that the Age 60 rule, coupled with the FAA's practice of 
automatically denying all pilot requests for exemptions regardless of 
merit, is arbitrary and unfair to our individual pilots, and it is 
economically harmful to our company. Exemptions for physically and 
mentally qualified pilots from the Age 60 Rule should be allowed to 
accomplish the FAA's dual statutory mandates of maximum safety and 
optimal efficiency in United States commercial aviation.
    We appreciate the Subcommittee's consideration of this important 
issue. Please feel free to contact us if you have any questions.
        Sincerely,
                                         Thomas B. Chapman,
                            Legislative Counsel, Government Affairs

        cc: Captain Joseph ``Ike'' Eichelkraut, President, Southwest 
        Airlines Pilots' Association
                                 ______
                                 
         No. 04-1233--In The Supreme Court of the United States

      Dallas E. Butler, et al., Petitioners, v. Federal Aviation 
                      Administration, Respondent.

  on petition for a writ of certiorari to the united states court of 
              appeals for the district of columbia circuit

 Brief Amicus Curiae of Southwest Airlines Co. In Support of Petitioner

        Robert W. Kneisley, Counsel of Record, Southwest Airlines Co.

        Deborah Ackerman, Vice President/General Counsel.

        Attorneys for Amicus Curiae, Southwest Airlines Co.

    This amicus curiae brief is submitted on behalf of Southwest 
Airlines Co.\1\ Petitioners and Respondent have consented to the filing 
of this amicus curiae brief, as indicated by the letters submitted with 
the filing of this brief.
---------------------------------------------------------------------------
    \1\ This brief was not authored in whole or in part by counsel for 
a party. See Sup. Ct. R. 37.6. It was authored by in-house counsel for 
Southwest Airlines Co. In addition, no person or entity, other than 
Southwest Airlines Co., its members, and its counsel, made a monetary 
contribution to the preparation or submission of the brief.
---------------------------------------------------------------------------
Interest of Amicus Curiae
    Southwest Airlines Co. (hereafter ``Southwest'' or ``Southwest 
Airlines''), the largest commercial airline in the United States in 
terms of passengers boarded, provides point-to-point, low-fare service 
to 60 cities in 31 states. In operation since 1971, Southwest currently 
serves more than 70 million passengers annually with a fleet of over 
400 Boeing 737 aircraft operating approximately 2,900 flights daily. 
Headquartered in Dallas, Texas, Southwest has approximately 31,000 
employees nationwide and has one of the best overall customer service 
records in the U.S. airline industry. With annual revenues exceeding 
$6,500,000,000 in 2004, Southwest is a Fortune 500 company and one of 
the few profitable U.S. airlines.
    Southwest is directly impacted by this case because it employs over 
4,500 pilots, many approaching the age of 60. In fact, Michael L. 
Oksner, a Petitioner in this case, was recently forced to retire from 
Southwest Airlines when the Federal Aviation Administration (FAA) 
denied his petition for an exemption from the ``Age 60 Rule.'' That 
rule, codified at 14 CFR Sec. 121.383(c), requires pilots operating 
under Part 121 of the FAA's regulations (i.e., virtually all U.S. 
commercial airline pilots) to retire on their 60th birthday.
    The direction and authority to evaluate this case and to file an 
amicus curiae brief herein came from Herbert D. Kelleher, co-founder 
and Executive Chairman of the Board of Southwest Airlines.
Summary of Amicus Argument
    Southwest Airlines urges the Supreme Court to grant certiorari as 
requested by the Petitioners in this case, Butler, et al. v. Federal 
Aviation Administration, et al., D.C. Cir. No. 03-1386 (September 24, 
2004). The Petitioners challenge the FAA's rigid application of its Age 
60 Rule, which requires all commercial pilots employed by Part 121 air 
carriers to retire at the age of 60, regardless of individual pilot 
abilities or health conditions. The current Age 60 Rule was adopted by 
the FAA 45 years ago, and is based on obsolete data that has been 
superceded and refuted by more recent medical findings. This rule, 
coupled with the FAA's practice of automatically denying all pilot 
requests for exemptions regardless of merit, is arbitrary and injurious 
to Southwest Airlines. Exemptions for physically and mentally qualified 
pilots from the Age 60 Rule should be allowed to accomplish the FAA's 
dual statutory mandates of maximum safety and optimal efficiency in 
United States commercial aviation. The court below erred in acceding to 
the FAA's argument that the case should not even be heard on the 
merits.
Amicus Argument
I. The FAA's Application of the Age 60 Rule Without Consideration of 
        Individual Pilot Abilities, Health Conditions, or Current 
        Medical Data Is Not Justified
    The FAA's practice of automatically denying all pilot requests for 
exemption from the Age 60 Rule is not medically justified. The 
mandatory retirement rules for pilots were established in 1959--45 
years ago. Today, FAA data shows that pilots over age 60 are as safe 
as, and in some cases safer than, their younger colleagues. For 
example, the FAA released the Hilton Study in 1993, which stated ``the 
data for all groups of pilots were remarkably consistent in showing a 
modest decrease in accident rate with age [and] no hint of an increase 
in accident rates as pilots near age 60.'' \2\ In addition, the 
National Institute of Aging stated, in 1981, that ``the Age 60 Rule 
appears indefensible on medical grounds'' and ``there is no convincing 
medical evidence to support age 60, or any other specific age, for 
mandatory pilot retirement.'' \3\ Both medical technology and medical 
services, as well as the aging process itself, have dramatically 
improved since 1959. Southwest Airlines is familiar with, and agrees 
with, these medical studies which have concluded that there is no 
current health justification for automatically grounding all commercial 
airline pilots upon turning age 60.
---------------------------------------------------------------------------
    \2\ Hilton Systems, Incorporated. Kay et al. (1994).
    \3\ 149 Cong. Rec. 63, S5607 (April 30, 2003) (Statement of Senator 
Inhofe (for himself, Mr. Stevens, and Mr. Burns) on the Introduction of 
S. 959, Bill to Abolish the FAA's Age 60 Rule).
---------------------------------------------------------------------------
    Captain Joseph ``Ike'' Eichelkraut, President of Southwest Airlines 
Pilots' Association, and a pilot with 25 years of experience flying 
both military and commercial aircraft, testified on the Age 60 Rule 
before the Senate Special Committee on Aging on September 14, 2004.\4\ 
His testimony explains the many safeguards that are already in place to 
ensure pilots of all ages are healthy and medically fit to fly:
---------------------------------------------------------------------------
    \4\ A Fresh Look At Mandatory Retirements: Do They Still Make 
Sense? Hearing Before the Senate Special Comm. on Aging, 108th Cong., 
2004 WL 2052540 (F.D.C.H.) (Statement of Captain Joseph ``Ike'' 
Eichelkraut, President, Southwest Airlines Pilots' Association).

        The FAA already has the ideal mechanisms in place for ensuring 
        safe pilots at any age . . . To retain my license and fly for 
        Southwest Airlines, I must pass semi-annual flight physicals, 
        administered by an FAA licensed medical examiner, that include 
        an annual EKG. I must also demonstrate complete knowledge of 
        safe piloting skills, systems and procedures, and semiannual 
---------------------------------------------------------------------------
        check rides and advanced simulators.

        Pilots must also successfully pass semiannual simulator 
        training and flight checks designed to evaluate the 
        crewmember's ability to respond to various aircraft emergencies 
        and/or competently handle advances in flight technology and the 
        Air Traffic Control environment . . . There is no greater test 
        of cognitive ability and mental dexterity than these simulator 
        rides . . . The 59 year old Captain arrives at this point in 
        his career having demonstrated successful performance following 
        years of this kind of scrutiny. FAA studies have verified the 
        superior level of safety exhibited by this senior captain.

    The documentary evidence--disclosed in the record of this case--
reveals that the FAA's automatic denial of all age exemptions has no 
tangible safety purpose. The FAA itself even granted exemptions from 
the Age 60 Rule in the early 1990s to commercial pilots of foreign 
carriers. Because the undistorted data of pilot performance shows that 
older, more experienced pilots have excellent safety records, it 
clearly is in the interest of both the airlines and their passengers to 
allow qualified, medically-certified pilots to fly beyond age 60.
II. The FAA's Inflexible Application of the Age 60 Rule Undermines U.S. 
        Airline 
        Economics and Disserves the Traveling Public.
    The 1950s-era Age 60 Rule, coupled with the FAA's rigid 
implementation of it, arbitrarily deprives Southwest Airlines of some 
of its best pilots at the peak of their careers. Southwest, which 
employs over 4,500 highly-skilled professional pilots, believes that 
the arbitrary rejection of all age exemption requests disserves the 
public interest by depriving commercial airlines of leadership and 
experience in the cockpit. This inflexible approach inhibits the 
industry from achieving maximum safety as well as optimal efficiency in 
passenger airline operations. The flight experience and training 
accumulated over the career of a professional pilot approaching the age 
of 60, along with the investment in training by that pilot's airline 
employer such as Southwest, is enormous. Commercial pilots have the 
potential for years of safe, productive aviating ahead of them beyond 
their 60th birthday. Many airlines could operate more efficiently, 
while maintaining the highest standards of safety, if qualified pilots 
were allowed to continue to fly beyond age 60.
    Southwest Airlines Captain Michael L. Oksner, one of the 12 
Petitioners in this case, was forced to retire on his 60th birthday, 
April 5, 2004, because of the FAA's denial of his individual Age 60 
exemption request. Captain Oksner's safety performance and medical 
records were unblemished. Southwest believes that he should have been 
granted an exemption by the FAA to continue flying. The Petitioners in 
this case, including Captain Oksner, should have their requests for 
exemption considered on the merits, not arbitrarily denied by the FAA. 
The Agency should be required to reach its decision on such exemption 
requests based on the safety performance and medical records of the 
individual pilots, not on an arbitrary, out-dated standard that the FAA 
imposes on all pilots regardless of individual abilities. Accordingly, 
we urge the Court to grant de novo review of the Petitioners' case, and 
require the FAA to follow a reasoned standard of individual 
consideration of Age 60 Rule exemption requests, pursuant to the 
Agency's statutory power to grant exemptions from its regulations when 
in the public interest (49 U.S.C. Sec. 44701(f)).
    Moreover, the FAA has a statutory duty to consider exemptions in 
light of paramount safety requirements in air commerce, pursuant to 49 
U.S.C. Sec. 40101(a)(1). Without lessening safety, the FAA also has a 
duty to consider the economic health and efficiency of the Nation's air 
carriers pursuant to 49 U.S.C. Sec. Sec. 40101(a)(6)(A) (the FAA shall 
consider it in the public interest ``to encourage efficient and well-
managed air carriers to earn adequate profits . . .''); and 40101(a)(7) 
(it is in the public interest for FAA to develop and maintain ``a sound 
regulatory system that is responsive to the needs of the public . . 
.''). Southwest Airlines' analysis of the issue has concluded that 
safer and more efficient operations will result from reasoned 
consideration--instead of arbitrary denial--of age exemption requests. 
Therefore, Southwest Airlines believes that the Petitioners' case must 
be heard, for the sake of both the health of U.S. commercial aviation 
and the safety of the flying public.
    The FAA's arbitrary no-exemptions policy for commercial airline 
pilots should be ended, consistent with the public interest in air 
safety, because it serves no safety purpose. Pilots of smaller aircraft 
such as those operating under Parts 91 and 125-137, general aviation 
pilots, and certain test pilots are allowed to fly beyond age 60. In 
addition, at least 24 nations allow pilots to fly commercial aircraft 
past age 60.\5\ These pilots share the same airways and runways with 
the large U.S. passenger airlines operating under Part 121. The safe 
performance of these pilots and others worldwide confirms that the 
FAA's asserted claim of a safety basis for its no-exemptions policy for 
Part 121 pilots is unfounded.
---------------------------------------------------------------------------
    \5\ A Fresh Look At Mandatory Retirements: Do They Still Make 
Sense? Hearing Before the Senate Special Committee on Aging, 108th 
Cong., 2004 WL 2052541 (F.D.C.H.) (Statement of Russell B. Rayman, MD, 
Executive Director of the Aerospace Medical Association).
---------------------------------------------------------------------------
Conclusion
    For the foregoing reasons, Southwest Airlines urges the Supreme 
Court to grant certiorari to the Petitioners in this case.
                                 ______
                                 
           Prepared Statement of Bert M. Yetman, President, 
                     Professional Pilots Federation
Introduction
    The Professional Pilots Federation (PPF) has, since being 
established in 1991, represented pilots encumbered by FAR 121.383(c), 
known as the Age 60 Rule. This Federal Aviation Regulation forces the 
safest, most experienced pilots from our airline cockpits at 59 years, 
364 days. regardless of health or competence. Although the Federal 
Aviation Administration has held the regulation to be a ``safety 
rule,'' the evidence has shown that the Rule was promulgated as an 
economic favor to the airlines. Safety was the only ``fortress'' which 
would allow such a Rule to endure for 45 years. 44 or more nations have 
eliminated age 60 as a pilot retirement age and have no age limit, or 
65. relying on medical and practical testing (simulator and en route 
checks). They have experienced no problems with the over-60 pilots.
Airline Crisis
    No one would deny that the American airline industry is suffering 
one of its worst crises ever. Many familiar airlines have disappeared. 
Still others are fighting for their very existence, such as legacy 
carriers US Airways, United Airlines and Delta. American Airlines is 
struggling to keep its head above financial waters. A 1993 study showed 
one of these carriers, now in bankruptcy, would save more than 
$53,000,000 for each year the age Rule was extended, mostly in training 
costs for upgrading to replace the retiring captain.
    Through collective bargaining agreements. pilots salaries are no 
longer a factor in the economic maintenance of the Age 60 Rule. After 
12 years, a pilot has reached the top of the seniority pay increase 
scale. Equipment changes and contractual negotiations are his only 
salary increases. The single economic reason for implementation of an 
Age 60 Rule has gone the way of the dinosaur.
Airline Pensions
    Employee pensions have been hard hit by airline management's 
striving to cut costs. Pilot pensions, in particular, have been the 
hardest hit. Employee concessions, negotiated over the past few years, 
have not been enough to satisfy airline financial losses. Airlines 
entering bankruptcy are defaulting on underfunded pension plans, in 
turn placing the substantial financial burden on the Pension Benefit 
Guaranty Corporation (PBGC). Even this is not an assurance of a 
comfortable retirement, certainly not the retirement expected after 
many years of faithful airline employment. In some cases pilots are 
expected to receive \1/3\ or less of their anticipated pension, and 
that may be reduced further by the PBGC policy of reducing payments for 
early retirement, which pilots are forced to take upon reaching age 60. 
Those closest to retirement are in the worst position, with no time to 
recoup losses even if they were allowed to continue their careers. A 
total restructuring of retirement planning is necessary for those 
retirees, with the selling of homes, scaling down of living standards, 
acquiring medical coverage, the expenses of college age children, etc.
    Social Security does not help airline pilots at age 60 retirement. 
In fact they will lose benefits for each quarter year they fail to 
contribute. In other words, after many years of contributing at the 
highest possible level, their benefits will decline for each year of 
noncontributing until Social Security begins. And, of course. Medicare 
is unavailable until reaching 65. At age 65, that would be 20 quarters 
of reduced benefit, or hundreds of dollars each month. The only 
solution to that problem is to find alternate means of work. Not an 
easy task at age 60.
Conclusion
    The answer to this 45-year-old antiquated, illogical, and unfounded 
problem of FAA forced retirement for pilots is simple. Follow Europe, 
Australia, Japan, and the rest of the world (the USA used to lead) by 
allowing pilots to continue their careers at least until full Social 
Security and Medicare benefits begin, presently age 65. If they choose 
to retire at 55 or 60, it should be allowed without unnecessary 
restrictions or undue loss of benefits. Certainly present medical and 
proficiency standards would still apply.
    According to the 1993 study * titled Economic Impact of the FAA's 
``Age 60 Rule'', if pilots were allowed to continue beyond their 60th 
birthday, the realized annual savings at one major carrier, now in 
bankruptcy, would have been:
---------------------------------------------------------------------------
    * Economic Impact of the FAA's ``Age 60 Rule'', S.D. Woolsey, 1993.

---------------------------------------------------------------------------
        Real Permanent Savings:

            Staffing levels: $2,251,320.00
            Pay differentials: $16,380,000.00

        Temporarily Deferred Expenditures:

            Training costs: $34,579,124.00

        Savable/Deferrable in 1993: $53,210,444.00

    Those savings would have easily exceeded $250 million over 5 years 
for just this one carrier, largely through savings in transition 
training costs--which are available to most carriers.
    The Professional Pilots Federation thanks you for the opportunity 
to allow pilots to be part of the solution, not the problem. We wish to 
continue supporting our airlines. We wish to continue contributing to 
Social Security. We wish to continue to bolster the economy of this 
great country.
                                 ______
                                 
                       Prepared Statement of AARP
    AARP appreciates the opportunity to present its views regarding 
mandatory retirement rules for airline pilots for the record of the 
July 19 hearing, before the Senate Subcommittee on Aviation.
    With more than 35 million members, AARP is the largest organization 
representing the interests of Americans age 50, and older, and their 
families. Nearly half of AARP members are working either full-time or 
part-time, and they have a vital interest in remaining on the job or 
finding work--without facing age discrimination by their employers.
    Protecting and expanding older workers' rights was a founding 
principle of AARP. Today, AARP is the leading organization advocating 
for older workers at the Federal and state court levels, before 
Congress and state legislatures, and before enforcement agencies. AARP 
works closely with other organizations seeking fair treatment for those 
in the workforce. In addition, we work with employers to develop 
policies that enhance opportunities for, and eliminate discrimination 
against, the ever-increasing number of workers who stay on the job past 
age 55.
    AARP is pleased that the Subcommittee is holding this hearing to 
take a look at the outdated policies surrounding mandatory retirement 
for pilots. Elimination of forced retirement based on age is long 
overdue, and it is AARP's hope that today's hearing will lead to the 
speedy enactment of legislation to end arbitrary age limits for pilots 
who must retire at age 60.
    Discrimination on the job is one of the most common problems faced 
by older persons today. Employment discrimination based on age, like 
that based on race and sex, is the result of unfair stereotypical 
assumptions that ignore an individual worker's ability. Not 
withstanding the Age Discrimination in Employment Act (ADEA), age-based 
employment discrimination remains prevalent. Older workers face sharply 
limited employment opportunities. In addition to a rapidly increasing 
unemployment level among older persons, labor statistics indicate that 
among persons looking for work, older persons have longer periods of 
unemployment and more difficulty finding jobs.
    Congress passed the ADEA, in 1967, to eliminate discrimination on 
the basis of age and to promote employment of older persons because of 
an individual's ability to carry out a job's duties. This landmark 
employment law did not affect airline pilots who are subject to a 1959 
FAA rule, requiring they stop flying at age 60. This 46-year-old rule 
continues to be in effect, even though there is no sound justification 
for it.
    The most frequently articulated argument to justify continuing the 
age-based employment discrimination for commercial pilots is medical. 
This argument does not hold water, however. Medical evidence 
consistently shows that chronological age is a poor determinant of 
ability, and that capability varies among individuals independent of 
age. The medical and scientific means exist to test individual fitness 
for jobs. Regular fitness testing is not a new concept; it is already 
in force for airline pilots. They are subject to periodic medical 
certification and successful completion of flight simulator exercises.
    Although the FAA has statutory authority to grant exemptions to the 
Rule in the public interest, it has never done so. Challenges to the 
age 60 rule, and to the FAA's refusal to grant any exemptions from it, 
have been unsuccessful over the years. Perhaps this year the arbitrary 
age limit will be overturned in favor of sound policy recognizing that 
years of experience, good judgment, and conformance with objective 
performance and medical criteria are much better indicators of a 
pilot's competence. AARP supports S. 65, sponsored by Senator James M. 
Inhofe and its companion bill. H.R. 65, sponsored by Representative Jim 
Gibbons. Both bills would link pilot retirement with the normal 
retirement age under Social Security. S. 65 and H.R. 65 take an 
important step toward eliminating the mandatory retirement age for 
pilots.
    The current age cap on employment for commercial airline pilots is 
contrary to the principles of equal opportunity and treatment. 
Furthermore, it is a waste of valuable skills and experiences. Federal 
law should not deny capable individuals the right to work based on out-
dated, invalid, and discriminatory assumptions about older workers. 
Mandatory retirement based on age should be eliminated--not just for 
those whose employment situation is addressed by the hearing today--but 
for anyone who is subject to arbitrary age limits.
                                 ______
                                 
   Prepared Statement of the International Brotherhood of Teamsters, 
                            Airline Division
    The International Brotherhood of Teamsters, Airline Division, 
represents 40,000 aviation employees, including over 7,000 air 
transport pilots (ATPs). Our organization supports changing the Age 60 
Rule, and urges Congress to pass S. 65 and H.R. 65, legislation 
introduced by Senator James Inhofe and by Congressman James Gibbons, 
respectively.
    The Federal Aviation Regulation at 14 C.F.R. Sec. 121.383(c), 
commonly referred to as the Age 60 Rule, is a simplistic rule for a 
complex problem. The Age 60 Rule, enacted in December 1959, and 
effective in March 1960, was the subject of controversy then, and has 
remained so throughout the past 45 years. From its inception, the Rule 
has been the focus of numerous inconclusive studies, several subsequent 
rulemaking proceedings, many court battles, and occasional legislative 
attempts to overturn or modify it.
    Once again, the Age 60 Rule is in the spotlight. A confluence of 
events in the aviation industry (e.g., 9/11, fuel prices, chronic 
industry mismanagement, etc.) that have resulted in bankruptcies, wage 
concessions, the freezing of pensions and/or the transfer of pension 
plans to the Pension Benefit Guaranty Corporation (PBGC), and the 
resultant unexpected loss of income for pilots who face retirement in 
the immediate or near future, have refocused attention on the issue of 
forced retirement for pilots flying under Part 121.
    The Teamsters Airline Division supports the proposed legislation, 
which would permit pilots to fly until age 65. At the same time 
however. we advocate that the legislation be amended to include two 
additional components: (1) pension protection for those pilots retiring 
or required to retire at age 60 for medical or other reasons (such 
protection could be temporary and designed to phaseout over period of 
10 to 15 years), including adjustments to PBGC and Social Security 
rules to accommodate the new mandatory retirement age: and (2) an 
independent longitudinal study of the correlation between aviation 
safety and pilot age.
    The Age 60 Rule was promulgated in response to the air carriers' 
desires and needs, rather than any demonstrable safety concerns. Fifty 
years later, however, this issue is no longer relevant except to 
explain the Federal Aviation Administration's (FAA) dogged reluctance 
to modify the Rule. The Committee should instead consider: (1) the 
meager scientific evidence cited to support the Age 60 Rule when it was 
first issued; (2) the lack of credible evidence used to defend the Rule 
throughout its many legal, legislative, and regulatory challenges; and 
(3) the FAA's continued intransigence in view of emerging scientific 
evidence regarding aging and cognition. The FAA's policy is undermined 
by its highly selective, inconsistent, and specious application of the 
scientific literature.
    An objective review of pertinent literature makes it clear that age 
is neither a valid nor reliable predictor of a pilot's ability to fly a 
transport aircraft safely. Rather, the pilot's individual health and 
cognitive status, as well as training, skill, experience, and 
demonstrated proficiency, best determine suitability for active ATP 
status. Even the FAA's own Civil Aerospace Medical Institute (CAMI) 
investigators, after having conducted an extensive review of selective 
literature from 1990 to 1999, noted, ``the vast majority of the 
scientists who have subsequently reviewed and commented on the issues 
associated with the continued use of chronological age suggest that 
there are better alternatives.'' (Schroeder, et al., 2000) (emphasis 
added). ``Better alternatives'' would surely result in equal, if not 
superior, safety effects.
    Opponents have alleged that the Age 60 Rule was issued in response 
to a ``suggestion'' from then-Chairman of American Airlines, C.R. 
Smith, to then-FAA Administrator, General Elwood Quesada, that ``[I]t 
may be necessary for the regulatory agency to fix some suitable age for 
retirement. (Smith letter dated February 5, 1959). The Professional 
Pilots Federation (PPF) claimed in a 2002 petition for exemption that, 
``the age 60 rule was not initiated as a safety measure'' but rather 
``to force Smith's older pilots into early retirement.'' The FAA has 
denied these allegations. The General Accounting Office (GAO) reported, 
in 1989, that according to the FAA, the Rule was a response to FAA 
concerns that ``the use of pilots aged 60 and over in air carrier 
operations presented a safety hazard'' and ``this concern emerged as 
major airlines, whose practice was to allow senior pilots the option of 
flying the newest and largest aircraft, were making the transition to 
turbojets.'' The ``FAA reasoned that accidents among older pilots, 
although not a problem at the time, could become one.'' (GAO, 1989). 
Interestingly, the GAO also stated that it was not age, as such that 
caused the FAA concern, but rather the increased frequency of impairing 
medical conditions associated with aging.
    Schroeder, Harris, and Broach (2002), based on their review of the 
historical literature, reported that several factors drove the 
promulgation of the Age 60 Rule. These included an aircraft accident 
involving a 59 year old pilot and a new generation turbo jet aircraft, 
the supposed difficulties older pilots had experienced in transitioning 
to the new generation jet aircraft, the growing numbers of older 
pilots, and the increased incidence of coronary heart disease in older 
adults, resulting in a greater probability for sudden incapacitation in 
older pilots. They also noted that the FAA was concerned with the 
``subtle consequences of age'' that might have a negative impact on 
pilot performance and judgment.
    The Air Line Pilots Association, International (ALPA) has agreed, 
at least for the past 25 years, with both the FAA's account of the 
Rule's origin and its scientific validity. In its comments to the 
docket on the PPF petition for exemption filed in October 2002, ALPA 
argued that the PPF's claims regarding the Rule's origin ``are neither 
relevant nor supportable'' and that ``even if the Rule's origin were 
questionable, those questions would have been cured by the Agency's 
later proceedings.'' (Emphasis added.) Ironically, ALPA's support of 
the Rule is at odds with its original position on the issue; it was 
ALPA who filed the first legal case against the Age 60 Rule, because it 
strongly opposed the Rule for 20 years.
    When ALPA sued the FAA, it claimed that the Rule: ``(1) was outside 
the rulemaking power of the Administrator; (2) could not be promulgated 
without a hearing, as required by either the Constitution or the 
Administrative Procedure Act; (3) was not reasonable related to safety 
concerns; and (4) was arbitrary.'' ALPA v. Ouesada, 182 F.Supp. 595 
(S.D.N.Y. 1960), aff'd, 276 F.2d 892 (2d Cir. 1960), 286 F.2d 319 (2d 
Cir. 1961), cert. denied, 366 U.S. 962 (1961) (emphasis added); (GAO, 
1989). The courts rejected ALPA's arguments.
    ALPA's remarks to the 2000 Age 60 docket notwithstanding, ALPA's 
official publication, Airline Pilot, recently included a historical 
synopsis that suggests the Rule had little to do with safety, and more 
to do with accommodating the carriers' desires to rid themselves of 
older pilots. (Francis, 2005). In 1958, ALPA signed its first jet 
contract, with National Airlines. According to Francis, air carriers 
wanted to transition into jet flying quickly, and minimize the cost by 
using younger military pilots who already had jet training and 
experience. FAA regulations did not limit a pilot's age, so several 
carriers implemented their own mandatory retirement age. (Holbrook, 
1974). When American, TWA, and Western airlines attempted to force 
pilots into retirement at age 60, these policies were challenged via 
the grievance process. (Francis, 2005). The arbitrator in each case 
ruled in favor of the pilots.
    American ignored the arbitrator's ruling and continued to enforce 
mandatory retirement at age 60, which helped lead to a pilot strike 
from December 20, 1958 through January 10, 1959. American finally 
capitulated, met the pilot's strike demands, and agreed to reinstate 
three captains who were forced to retire. After the strike, American 
delayed reinstating the pilots and its Chairman wrote a private letter 
to the FAA Administrator suggesting the need for a statutory retirement 
age. American also conducted a study of their pilots (which reported 
that older pilots required more training than younger pilots to 
transition from propeller to jet aircraft) to substantiate the need for 
a mandatory retirement age. FAA attorneys, however, recommended that 
the study not be used to justify age limits, and advised instead that 
the FAA use medical criteria to justify the Rule. (Francis, 2005).
    ALPA maintained its opposition to the Rule until 1980, arguing for 
20 years that an individual pilot's mental and physical abilities, 
rather than an arbitrary age limit, should determine fitness for 
flight. ALPA also insisted that the Age 60 Rule was discriminatory, 
posed an economic hardship for pilots, was based on faulty evidence, 
and that subsequent medical evidence refuted the FAA's premise for the 
Rule. In 1971, ALPA engaged the services of four internationally 
recognized physicians to testify at a public hearing in opposition to 
the medical claims made by the FAA. (Holbrook, 1974). By 1980, however, 
ALPA's interests had shifted, and it decided to support Age 60 ``in 
view of its relevance to contract items such as retirement benefits.'' 
(Francis, 2005) (emphasis added). ALPA also acknowledged that as the 
number of younger pilots increased proportionally in its ranks, the 
importance of overturning the Rule diminished since these younger 
members were interested in advancing their careers by moving more 
quickly into the left seat. (Francis, 2005).
    In testimony before this committee on July 19, 2005, ALPA, speaking 
in opposition to the proposed legislation, asserted that the Age 60 
Rule is based on ``two fundamental principles of medical science that 
are indisputable . . . the risks of incapacitation and unacceptable 
decrements in performance increase with age'' and ``medical science has 
not developed a regimen of reliable tests that can be administered 
effectively to determine which aging pilots will become incapacitated, 
or whose performance will decline to an unacceptable level.'' (Woerth, 
2005). Both of these arguments reflect those put forth by the FAA. Both 
are misleading.
    While the risk, and incidence of incapacitation and performance 
decrement increases with age, these outcomes are not inherently linked 
to aging as is implied. Research on aging suggests that the cognitive 
decline and performance impairment associated with aging is actually 
more a functional outcome of chronic disease, especially cardiovascular 
disease, than age per se. This relationship between disease and 
physical and cognitive decline is well established, and in fact, was 
recognized by the FAA's own medical experts in the early 1960s (Balke, 
1963; Spieth, 1964; and Wentz 1964).
    Another argument the FAA offers is the relationship of pilot age to 
accidents based on several studies (Broach, 1999; Golaszewski, 1983, 
1991, 1993; Kay, Hillman, Hyland, Voros, Harris, and Deimler, 1994) 
that have been roundly criticized for methodological and analytical 
flaws. Notably, none of these studies were published in peer-reviewed 
journals, but were still referenced in the FAA's testimony before this 
Committee on July 19, 2005, and the FAA reiterated another often cited 
justification for the Rule: ``There is no absolute, scientific formula 
that may be readily applied'' to determining a pilot's fitness for duty 
after age 60.
    The assertion by the FAA and supporters of the Age 60 Rule that 
medical science has not developed a ``regimen of reliable tests'' to 
identify pilots at risk for incapacitation, or who might be cognitively 
impaired is at best disingenuous. Medical science has come a long way 
since 1959. The medical certification requirements and proficiency 
testing protocols for ATPs are rigorous, and certainly sufficient to 
identify pilots at risk for incapacitation and impaired performance. 
The system is effective; the record speaks for itself.
    In fact, the FAA and ALPA extolled the validity and reliability of 
the medical tests and proficiency evaluations imposed by the FAA and 
air carriers when they testified in April 2000, before the Subcommittee 
on Aviation in the U.S. House of Representatives, on issues arising out 
of the crash of Egypt Air. At that hearing, ALPA pointed out that 
``Airline pilots are certainly the most frequently tested and monitored 
professionals in the world, in regard to physical and mental health as 
well as professional performance and competence.'' (Woerth, 2000). 
Further, in arguing against the need for additional psychological 
testing as was then being contemplated, ALPA claimed that the existing 
medical and proficiency evaluation requirements provided ``ample 
means'' to identify impaired pilots. It is illogical and inconsistent 
to now claim that these same medical and proficiency tests lose all 
validity and reliability when a pilot reaches age 60. While opinion and 
self-interest (whether based on membership polls, economic necessity, 
or political expediency) may change over time, fundamental scientific 
principles do not.
    Considering the relationship between pathology and performance 
decrement/cognitive decline, the reliability and validity of the FAA's 
medical certification program for air transport pilots is certainly 
important. Since the incidence of pathology increases with age, one 
would expect that medical disqualifications of pilots would likewise 
increase with age, if the certification process was indeed valid and 
reliable. Additionally, one would expect that the initial application 
for a first-class medical certificate would disqualify individuals with 
underlying health problems, and would result in a ``healthy worker 
effect'' in this population. Analysis of the FAA medical certification 
data supports both these hypotheses.
    The age-specific denial rates for air transport pilots are 
compelling evidence that the FAA medical screening process works 
dependably to purge the ATP population of persons with those 
pathologies most associated with cognitive impairment or risk for 
incapacitation. This information is not new. In the late 1960s, the FAA 
initiated a study to quantify the attributes of medical certification 
denials in an effort to identify standards that might need amendment, 
as well as specific pathologies that might be of special concern in the 
aviation environment. (Siegel & Booze, 1968). While this initial 
attempt to analyze medical denial actions does not provide much insight 
relative to ATPs and the Age 60 Rule, it did lay important groundwork 
for later FAA studies. For example, Siegel and Booze noted that 
cardiovascular disease was the most significant medical 
disqualification factor for aviators. Since several FAA researchers 
(Balke, 1963; Spieth, 1964; and Wentz 1964) had reported a relationship 
between cardiovascular pathologies and cognitive decline, Booze's 
findings were noteworthy and emphasized the importance of careful 
screening for cardiovascular disease.
    In 1974, Booze conducted another study to quantify medical 
disqualification events. This study was the first in a program 
established by the FAA, to examine and monitor denial actions 
periodically to identify research direction, needed modifications to 
standards, and risk determination criteria. The primary purpose was the 
``enhancement of flight safety through medical program data analysis.'' 
In the first two program reports, the FAA reviewed the medical 
disqualification rates for all pilots (Booze, 1974; Dark, 1980) and in 
subsequent years (Dark, 1983; Dark, 1984; Dark, 1986; and Downey & 
Dark, 1992) they focused on the disqualification rates for airline 
pilots. In every report, cardiovascular disease was identified as the 
most frequent cause of disqualification; in the most recent analysis 
(Downey & Dark, 1992) it accounted for 33.5 percent of the denials. It 
appears that the FAA's medical protocols have reliably eliminated a 
significant cause of cognitive decline and impairment in the ATP 
population. Additionally, in each report, the rate of denial increased 
with age. In the 1992 analysis, for example, the age specific denial 
rates per 1,000 pilots were: 25-29 years--1.0; 30-34 years--1.0; 35-39 
years--1.0; 40-44 years--2.7; 45-49 years--5.6; 50-54 years--9.7; and 
55-59 years--16.2.\1\ These studies, along with the very small number 
of incapacitations experienced in air transport operations, confirm 
that the FAA's medical certification process does reliably screen 
pilots who are at risk for impairment and incapacitation.
---------------------------------------------------------------------------
    \1\ We were able to obtain raw data from the FAA/CAMI on the number 
of applicants and denials for first class medicals for 2004. Analysis 
shows the same trend (i.e., increasing number of disqualifications with 
increasing age); however, because the raw data do not specifically 
identify air transport pilots, the information does not lend itself to 
direct comparison with the referenced FAA studies.
---------------------------------------------------------------------------
    It is ironic that the FAA's preoccupation with cognitive decline 
and impaired performance seems to be limited to aging pilots (and those 
who abuse alcohol or drugs) while ignoring fatigued pilots. A robust 
body of scientific literature clearly establishes a relationship 
between fatigue and impairment. There is also ample evidence that the 
current Federal Aviation Regulations for flight/duty time and minimum 
rest do not adequately prevent fatigue in air carrier operations. The 
FAA last addressed the fatigue issue with a Notice of Proposed 
Rulemaking in 1995. Ten years later, we still wait for FAA action; 
there has been no disposition of comments, no Final Rule, no change. In 
the meantime, pilots of all ages continue to fly fatigued, and possibly 
impaired, because of excessive duty periods and inadequate rest.
    Finally, the FAA's insistence that any change to the Age 60 Rule 
maintain an ``equivalent level of safety'' is an impossible test to 
meet because the point of reference is nonexistent. In this instance, 
the ``equivalent level of safety'' is a ruse. Nowhere in the scientific 
literature, or in any FAA report or document, is there a measure of 
effect that can be directly attributed to the Age 60 Rule, as opposed 
to, for example, improved weather forecasting, improved engines, better 
pilot training, more reliable instrumentation, and so forth. There is 
no measure of effect--positive or negative--that the Age 60 Rule has 
had on aviation safety. Absent such a baseline measure, how can one 
demonstrate that a proposed change to the Rule would provide an equal 
or greater level of safety?
    The Age 60 Rule is not a safety rule. Better alternatives exist to 
ensure that the active ATP population remains healthy and free from 
impairment that would compromise air safety. The public would be better 
served if the FAA directed its limited resources toward enhancing these 
alternatives. While the FAA may legitimately claim that it followed the 
rulemaking process in issuing the Age 60 Rule, it cannot claim that the 
scientific and medical evidence conclusively validates the Rule. Nor 
has the FAA ever proved that the Rule's implementation resulted in a 
safer aviation environment. The Aerospace Medical Association, in a 
2004 position paper and in 2005 testimony before this Committee, argued 
that there is ``insufficient medical evidence to support restriction of 
pilot certification based on age alone.'' It is time to modify the Age 
60 Rule. S. 65 and H.R. 65 together are an appropriate first step in 
the right direction.
Works Cited
Aerospace Medical Association. (2004). The Age 60 Rule: Position Paper. 
            Aviation, Space, and Environmental Medicine, 75, 3, 708-
            715.
Air Line Pilots Association, International. (2002). Comments on the 
            matter of the petition of Dallas E. Butler, et al. (FAA 
            Docket. FAA-2002-12501). October 11, 2002. Available at: 
            http://dms.dot.gov.
Balke, B. (1963). Experimental Evaluation of Work Capacity as Related 
            to Chronological and Physiological Aging. (Report 63-18, 
            Sept. 1963). Oklahoma City, OK: FAA Aviation Medical 
            Service, Aeromedical Research Division, Civil Aeromedical 
            Research Institute. Available at: http://www.faa.gov.
Booze, C.F. (1974). Characteristics of Medically Disqualified Airman 
            Applicants During Calendar Year 1971. (FAA-AM-74-5, May 
            1974). Washington, D.C.: Federal Aviation Administration, 
            Office of Aviation Medicine. Available at: 
            http://www.faa.gov.
Broach, D. (1999). Pilot age and accident rates. A re-Analysis of the 
            1999 Chicago Tribune report and discussion of technical 
            considerations for future analysis. (As cited in Broach et 
            al. (2000). Unpublished Civil Aeromedical Institute report 
            prepared for Congress.) Oklahoma City, OK: FAA Civil 
            Aeromedical Institute Human Resources Research Division.
Dark, S.J. (1980). Characteristics of Medically Disqualified Airman 
            Applicants in Calendar Years 1977 and 1978. (FAA-AM-80-19, 
            October 1980). Washington, D.C.: Federal Aviation 
            Administration, Office of Aviation Medicine. Available at: 
            http://www.faa.gov.
Dark, S. (1983). Characteristics of Medically Disqualified Airline 
            Pilots. (FAA-AM-83-5, January 1983). Washington, D.C.: 
            Federal Aviation Administration, Office of Aviation 
            Medicine. Available at: http://www.faa.gov.
Dark, S.J. (1984). Medically Disqualified Airline Pilots. (FAA-AM-84-
            9), August 1984). Washington, D.C.: Federal Aviation 
            Administration, Office of Aviation Medicine. Available at: 
            http://www.faa.gov.
Dark, S.J. (1986). Medically Disqualified Airline Pilots. (FAA-AM-86-7, 
            June 1986). Washington, D.C.: Federal Aviation 
            Administration, Office of Aviation Medicine. Available at: 
            http://www.faa.gov.
Downey, L.E. & Dark, S.J. (1992). Survey Reveals Age and Pathology 
            Trends for Medically Disqualified Airline Pilots. Flight 
            Safety Digest. September 1992. Flight Safety Foundation: 
            Alexandria, VA. Available at: http://www.flightsafety.org.
Francis, G. (2005). Origins of the Age 60 Rule. Air Line Pilot. January 
            2005. Washington, D.C.: Air Line Pilots Association, 
            International. Available at: http://www.alpa.org.
General Accounting Office (GAO). (1989). Aviation Safety--Information 
            on FAA's Age 60 Rule for Pilots. (GAO/RCED-90-45FS. 
            November 1989). Washington, D.C.: General Accounting 
            Office.
Golaszewski, R.S. (1983). The influence of total flight time, recent 
            flight time and age on pilot accident rates. (Tech.Rep. No. 
            DTRS57-83-P-80750). Bethesda, MD: Acumenics Research and 
            Technology.
Holbrook, H.A. (1974). Civil Aviation Medicine in the Bureaucracy. 
            Bethesda, MD: Banner Publishing Company, Inc.
Jordan, J.L. (2005). Statement before the Senate Committee on Commerce, 
            Science, and Transportation, Aviation Subcommittee Hearing 
            on the Federal Aviation Administration's Age 60 Rule. July 
            19, 2005. Available at: http://thomas.loc.gov.
Kay, E.J., Hillman, D.J., Hyland, D.T., Voros, R.S., Harris, R.M., and 
            Deimler, J.D. (1994). Age 60 rule research, Part III: 
            Consolidated data base experiments final report. (FAA-AM-
            92-22). Washington, D.C.: Federal Aviation Administration, 
            Office of Aviation Medicine. Available at: http://
            www.faa.gov.
Rayman, R.B. (2005). Statement before the Senate Committee on Commerce, 
            Science, and Transportation, Aviation Subcommittee Hearing 
            on the Federal Aviation Administration's Age 60 Rule. July 
            19, 2005. Available at: http://thomas.loc.gov.
Schroeder, D.J., Harris Jr., H.C., and Broach, D. (2000), Pilot age and 
            performance: An annotated bibliography (1990-1999). 
            Oklahoma City, OK: FAA Civil Aeromedical Institute. 
            Available at http://www.faa.gov.
Siegel, P.V. & Booze, C.F. (1968). A Retrospective Analysis of 
            Aeromedical Certification Denial Actions: January 1961-
            December 1967. (FAA-AM-68-9, May 1969). Washington, D.C.: 
            Federal Aviation Administration, Office of Aviation 
            Medicine. Available at http://www.faa.gov.
Smith, C.R. (personal communication to Elwood Quesada, February 5, 
            1959). Available at: http://www.ppf.org/exhibits.htm.
Spieth, W. (1964). Cardiovascular Health Status, Age, and Psychological 
            Performance. FAA Office of Aviation Medicine, Georgetown 
            Clinical Research Institute. (Report 64-4). Washington, 
            D.C. Available at: http://www.faa.gov.
Wentz, A.E. (1964). Studies on Aging in Aviation Personnel. (FAA-AM-64-
            1). Washington, D.C.: Federal Aviation Administration, 
            Office of Aviation Medicine, Georgetown Clinical Research 
            Institute. Available at: http://www.faa.gov.
Woerth, D. (2002). Statement before the Subcommittee on Aviation, 
            Committee on Transportation and Infrastructure, U.S. House 
            of Representatives, On Issues Arising Out of the Crash of 
            Egypt Air 990. April 11, 2002. Available at: 
            http://cf.alpa.org/Internet/TM/tm041100.htm.
Woerth, D. (2005). Statement before the Senate Committee on Commerce, 
            Science, and Transportation, Aviation Subcommittee Hearing 
            on the Federal Aviation Administration's Age 60 Rule. July 
            19, 2005. Available at: http://thomas.loc.gov.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                          Captain Ralph Hunter
    Question 1. If a pilot can meet the same requirements when they are 
over the age of 60 that they met when they were in their 30s, 40s, or 
50s, why should he or she no longer be able to operate a commercial 
passenger aircraft?
    Answer. The current medical and performance standards applied to 
30, 40, and 50-year old pilots do not provide an adequate test for the 
physical and cognitive declines due to advancing age. The current 
testing regime was never designed for this task, and it would be a 
mistake to assume that it was. In fact, the central issue of the entire 
Age 60 Rule debate is that the current state of medical and performance 
based testing does not provide a safe, reliable, and comprehensive 
method to screen for the effects of aging. This salient fact is even 
acknowledged by the opponents of the Age 60 Rule since they are merely 
requesting to extend--and not eliminate--the mandatory retirement rule.
    Requiring an individual to retire from a chosen profession due to 
the inevitable impact of aging should never be taken lightly. While 
aviation safety considerations demand some method of mandatory pilot 
retirement, science and technology have not yet provided us with the 
proper tools to identify high risk pilots on an individual basis. 
Because of the absence of effective screening tools, virtually all of 
the participants in this discussion agree that some chronological age 
limit is necessary.
    The opponents of the current regulation cannot point to any 
existing test or screening method that is supported by objective data, 
and, which would provide a safe and effective replacement for the Age 
60 Rule. By arbitrarily increasing the retirement age in absence of 
such a method, Congress would be exposing the traveling public to an 
increased and unknown level of risk. Further research is warranted 
before making any significant change to this important regulation.

    Question 1a. Would you support additional and more stringent 
testing and training for pilots 60 years of age that would indicate 
whether they are able to safely operate a commercial airliner?
    Answer. The Allied Pilots Association strongly supports additional 
research into the effects of aging on pilot health and performance. 
Both the FAA and the Aerospace Medical Association (AsMA) have cited 
the critical need for this research in their testimony to the 
Committee. While numerous studies of pilots have unquestionably shown 
that aging inevitably degrades performance and increases the risk of 
incapacitation, no one has yet been able to establish measurable 
criteria or reliable tests to identify when the level of risk reaches 
an unacceptable level.
    The supporters and proponents of the Age 60 Rule have highlighted a 
great philosophical divide on how to proceed with any further research 
in this area. The supporters of the Age 60 Rule advocate the time-
tested technique of establishing safe practices and procedures with 
objective data prior to any implementation in commercial aviation. On 
the other hand, the opponents of the Age 60 Rule are, in effect, asking 
Congress to conduct an experiment on the traveling public. By raising 
the mandatory retirement age first and collecting data later, 
commercial airline passengers would be exposed to an unknown level of 
risk. This is no different than introducing a new aircraft, engine, or 
system into commercial airline service in the absence of adequate 
testing based upon a sincere belief that safety would not be 
compromised. This approach is simply not acceptable in aviation.
    If further research on aging actually produces safe and reliable 
medical tests, or performance measurements that conclusively screens 
for the detrimental effects of aging, then APA would support its use in 
conjunction with a change to the mandatory retirement age. However, 
such tests do not currently exist, nor are they projected to exist in 
the near future.

    Question 2. How many pilots does the Age 60 Rule affect within your 
airline or association each year?
    Answer. Over the next 5 years, approximately 1,950 pilots (about 20 
percent of American's active pilots) are expected to retire due to the 
Age 60 Rule.

    Question 2a. Of these pilots who are no longer allowed to fly 
commercial passenger aircraft, are many interested in continuing as a 
pilot?
    Answer. While we have not asked this specific question of this 
particular group of pilots, it is important to point out that every 
commercial pilot was aware of the Age 60 Rule when they were hired at 
their airline. I would also strongly caution against altering an 
important safety-related rule based upon individual preferences. 
Maintaining or increasing the current level of aviation safety must be 
the primary test by which any new regulation is judged. In fact, many 
of the current FAA regulations governing pilot qualifications, 
responsibilities, hours on duty, and rest requirements exist to counter 
the very real personal and economic pressures to operate aircraft in an 
unsafe manner. Safety concerns were the original basis of the Age 60 
Rule, and in the absence of compelling evidence for change, the Federal 
Government's continuing commitment to aviation safety demands the 
retention of this important regulation.

    Question 3. Do many pilots continue working for your airline (or 
airline you represent) in a different position, or do most enter 
retirement?
    Answer. Most pilots that retire due to the Age 60 Rule do not 
continue employment at American Airlines. We do not compile data on 
pilot activities after retirement from American, but we do know 
anecdotally that some of them do go on to other careers in and out of 
aviation.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                        Captain Duane E. Woerth
    Question 1. If a pilot can meet the same requirements when they are 
over the age of 60 that they met when they were in their 30s, 40s, or 
50s, why should he or she no longer be able to operate a commercial 
passenger aircraft?
    Answer. The current requirements, by definition, assume that an 
airline pilot will not fly past age 60, so they do not attempt to 
identify many of the physical manifestations of the aging process, 
whether that assessment is done at age 30 or age 59. In the current 
system, there is no testing required by the FAA, at any age, which 
would serve to identify cognitive degradation or an increased 
likelihood of age-related debilitating illness. The bottom line is that 
the current rule has proven to be safe for over forty years and there 
is no medical evidence, nor any medical testing protocol, that would 
suggest that safety would be improved by changing the Rule.

    Question 1a. Would you support additional and more stringent 
testing and training for pilots 60 years of age that would indicate 
whether they are able to safely operate a commercial airliner?
    Answer. As I stated in my testimony, ALPA did a comprehensive poll 
of our members and specifically addressed this issue. Fewer than one-
third of our members would support any sort of more stringent medical, 
proficiency, or operational requirements for pilots over the age of 60.

    Question 2. How many pilots does the Age 60 Rule affect within your 
airline or association each year?
    Answer. The best data we have is a comprehensive study of Northwest 
pilots retiring since 1993. I believe that study is representative of 
most, if not all, U.S. ALPA carriers, and it shows that about 57 
percent of retiring pilots are retiring because they have reached age 
60. The other 43 percent retire for a variety of reasons, including 
medical retirement and elective early retirement.

    Question 2a. Of these pilots who are no longer allowed to fly 
commercial passenger aircraft, are many interested in continuing as a 
pilot? Do many pilots continue working for your airline (or airline you 
represent) in a different position, or do most enter retirement?
    Answer. We don't have specific data on what our members do after 
they leave active airline pilot service, but I know many of them 
continue in aviation. Some fly for corporate or FAR Part 135 operators, 
which, incidentally, is a category of operations that has an accident 
rate almost ten times higher than FAR Part 121 airline operations. 
Still others take non-flying positions at airlines.

    Question 3. What were their main reasons for their opposition to a 
possible rule change?
    Answer. Safety. The Age 60 Rule recognizes that subtle declines in 
cognitive and neuropsychological functions occur during the aging 
process, and have a potentially adverse impact on the ability of pilots 
to perform at maximum safety. Moreover, medical science has still not 
devised a reliable testing protocol that can accurately screen pilots 
for possible exemption from this safety standard. Until such technology 
exists, the Age 60 Rule continues to prove both reasonable, and within 
an acceptable range of risk for commercial air transportation 
operations. Piloting is a demanding profession, and one of the highest 
threats to aviation safety is fatigue. Sixteen-hour domestic duty 
days--even longer with more trans-Pacific international operations--are 
facts of life for airline pilots. Irregular shifts, all-night 
operations, and significant circadian rhythm challenges all contribute 
to decreasing the margins of safety. After what ALPA pilots have been 
through over the last several years--terrorism, bankruptcy, furloughs, 
pay cuts, pension terminations, and work rule changes--a clear and 
sound majority still believe that safety considerations are entirely 
too important to set aside the Age 60 Rule. As stated at the hearing, 
this rule should only be changed if it can be guaranteed--beyond all 
reasonable doubt--that raising the operational age limit for commercial 
airline pilots will not jeopardize safety standards.

    Question 3a. Did pilots of all ages oppose the ruling equally?
    Answer. No. Age is a factor that greatly affects the position 
pilots take on the Age 60 Rule. Pilots under the age of 40 opposed 
changing the Rule by nearly a three-to-one margin (74 percent to 24 
percent). In the 41 to 45 grouping, 31 percent said ``yes'' to an Age 
60 Rule change, and 68 percent said ``no.'' Among pilots age 46& 50, 40 
percent said ``yes,'' and 59 percent said ``no'' to changing the Rule. 
Additionally, had the nearly 6,000 furloughed ALPA pilots--most of whom 
fall in these age groups--been included in the polling, support for 
maintaining the Age 60 Rule would have been even higher.
    From this point on, however, the percentages reverse. Among pilots 
aged 51 to 55, 61 percent indicated they want a rule change, while 37 
percent were opposed. The strongest support for a change came from 
pilots aged 56-60, with 80 percent favoring a change and 19 percent 
opposed.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                   Captain Joseph ``Ike'' Eichelkraut
    Question 1. If a pilot can meet the same requirements when they are 
over the age of 60 that they met when they were in their 30s, 40s, or 
50s, why should he or she no longer be able to operate a commercial 
passenger aircraft?
    Answer. Southwest Airlines and the Southwest Airlines Pilots' 
Association strongly support S. 65, which would end the Age 60 Rule, 
and allow pilots to retire when they are eligible for their full Social 
Security Benefits. The Aerospace Medical Association and the 
International Civil Aviation Authority (ICAO) have both said that there 
is insufficient medical evidence to support an age-based rule. We 
believe that pilots should be able to work as long as they are able to 
pass an FAA Class 1 Medical exam, and meet all the safety criteria and 
standards in their check rides and simulator tests. If an age 
restriction is put in place due to political reasons, we feel strongly 
that, at a minimum, any limit should allow pilots to work until they 
are eligible for full Social Security and Medicare benefits. This is 
especially important in the current environment in which airlines are 
freezing, limiting, or terminating the defined benefit plans that were 
promised contractually to their pilots. It is equally important for 
airlines, such as Southwest, offering defined contribution benefits to 
their pilots so that they may maximize those benefits and their Social 
Security contributions.

    Question 1a. Would you support additional, and more stringent 
testing, and training for pilots 60 years of age that would indicate 
whether they are able to safely operate a commercial airliner?
    Answer. The FAA has safety standards that are the envy of the 
world. ICAO, in its recent report, recommended that member countries 
adopt a maximum age restriction of 65 (up from 60) in multi-crew 
operations, and essentially suggested that the world adopt the FAA 
standard as the suggested regime of medical and cognitive testing. We 
know that the checks and balances now in the FAA system are self-
purging and believe they are a sufficient test of any pilot's 
capabilities. The Class 1 medical exam, which must be passed every 6 
months, and the annual EKG test, is a sufficient medical screen to 
detect health concerns that may arise and create issues in the cockpit. 
Furthermore, the semi-annual simulator check rides and random in-flight 
check rides, by check airmen, are an excellent screen of piloting 
skills and cognitive ability at any age.

    Question 2. How many pilots does the Age 60 Rule affect within your 
airline or association each year?
    Answer. Southwest, being a relatively new airline has not had to 
deal with many retirements until just recently. In the past 5 years, 
SWA has experienced only a combined total of 281 pilot retirements, of 
which, 86 percent stayed beyond their 59th birthday. We currently have 
129 active members aged 59 or older, and this will raise the percentage 
next year to over 92 percent.

    Question 2a. Of these pilots who are no longer allowed to fly 
commercial passenger aircraft, are many interested in continuing as a 
pilot? Do many pilots continue working for your airline (or airline you 
represent) in a different position, or do most enter retirement?
    Answer. Most pilots at SWA who are forced into retirement at 60 
would prefer to stay, whether for personal or financial reasons, e.g.--
a defined contribution retirement plan which grows both with 
investments and with added (401k) contributions. Although we do not 
track the employment activities of retirees, we know that most go on to 
take jobs in other parts of aviation, whether it is flying for overseas 
carriers that don't have the restrictive FAA Age 60 rule, or in other 
parts of commercial aviation that do not require early retirement. 
There are only 2 management jobs per year, on average, available to 
Southwest pilots over 60, so this does not represent a substantial 
employment opportunity for pilots over 60 at our airline.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                            Captain Al Spain
    Question 1. If a pilot can meet the same requirements when they are 
over the age of 60 that they met when they were in their 30s, 40s, or 
50s, why should he or she no longer be able to operate a commercial 
passenger aircraft?
    Answer. JetBlue believes that all pilots should be judged on their 
individual ability and thus, if at age 60 or 61, just as at age 40 or 
50, a pilot is judged competent to fly and medically able to fly, he or 
she should not be prohibited by law from such flying. The tools are 
already in place to ensure appropriate standards of safety. medical 
testing and flight performance for all pilots, regardless of age.

    Question 1a. Would you support additional and more stringent 
testing, and training for pilots 60 years of age that would indicate 
whether they are able to safely operate a commercial airliner?
    Answer. Consistent with the answer above, current requirements for 
Recurrent Ground School, twice-yearly simulator training and check 
rides, and annual line checks prove the pilots flying and cognitive 
abilities for the specific aircraft and operation. Maintaining a Class 
I FAA Flight Physical requires a complete physical two times per year 
along with an annual EKG.

    Question 2. How many pilots does the Age 60 Rule affect within your 
airline or association each year?
    Answer. It would vary considerably from year to year, and depends 
on future hiring trends. However in the near future we would not see 
more than five (5) to eight (8) pilots per year leaving the cockpit due 
to the Age 60 Rule.

    Question 2a. Of these pilots who are no longer allowed to fly 
commercial passenger aircraft, are many interested in continuing as a 
pilot? Do many pilots continue working for your airline (or airline you 
represent) in a different position, or do most enter retirement?
    Answer. At JetBlue, all pilots impacted by the Age 60 Rule, thus 
far, have desired to keep flying. In fact, each of the pilots continues 
to work at JetBlue and most still do fly tech ops, ferry, or other 
flights that do not carry revenue passengers, though many of the 
flights do carry non-revenue passengers. Additionally, many pilots who 
are approaching age 60 are currently actively searching for jobs. 
Ironically, if the retirement rule is not changed, these pilots will 
most likely be flying passengers in business jets, or even business 
versions of commercial airliners, within the U.S. airspace system, and 
consistent with the rules of the same FAA that bars their flying 
commercial airlines.
                                 ______
                                 
                                         ATA Holdings Corp.
                                    Indianapolis, IN, July 19, 2005
Hon. Conrad Burns,
Chairman,
Senate Subcommittee on Aviation,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Burns:

    I am writing this on behalf of the pilots of ATA Airlines, Inc. 
(ATA); a company I founded thirty-two years ago . . . and was the first 
pilot.
    Our pilots recently voted to oppose the mandatory Age 60 retirement 
law; both in Congress and through their union. They have my 
unconditional support on this issue. The Age 60 Law was, is and will 
forever be, capricious and arbitrary. From the executive level of 
airline management, as well as from the cockpit, I know there is no 
medical issue justifying it; there never has been.
    This law, 14 CFR 121.383(c), is simply age discrimination. It can 
he defined in other terms.
    You will have before you H.R. 65. sponsored by the Honorable Jim 
Gibbons, and co-sponsored by an impressive list of bipartisan 
supporters. H.R. 65 will move the mandatory retirement age for airline 
pilots back to 65. This is still discriminatory, but is at least a 
first step toward eliminating the age factor entirely, and ultimately 
judging individual pilots on their ability and performance.
    Please support the passage of H.R. 65, its Senate counterpart, S. 
65 and any process that will eliminate this arcane rule with the full 
weight of your most esteemed office.
        Sincerely,
                                          George Mikelsons,
                       Chairman, President/Chief Executive Officer.
                                 ______
                                 
              Statements in Support of S. 65 and H.R. 65 *
    Captain Roger Cox, Tempe, AZ.
    Donald W. Wurster, First Officer, Brownsburg, IN.
    Paul Turner III, Charlotte, NC.
    Captain George Simmons, Charlotte, NC.
    Captain Michael Oksner (Retired), Nassau Bay, TX.
    Captain Billy Walker, Phoenix, AZ.
    Captain Pete Russo, Ph.D., System Chief Pilot, JetBlue Airlines.
    Bob Lavender, Provo, UT.
    Les Fuchs, Atlanta, GA.
    Bob Franklin, Federal Way, WA.
    Captain David J. McKennan, Cooper City, FL.
    Captain Horace Burnett, Amarillo, TX.
    Robin Wilkening, M.D., M.P.H., Annapolis, MD.
    Captain Robert Lawrence Cabeen, St. Charles, Illinois.
    Captain and Mrs. Frederick W. ``Bill'' Siegert, Elburn, IL.
    Robert R. Perry, EMB-120 Check Airman and FAA Designated Examiner, 
Yarmouthport, MA.
    Ramon Navarro, Gary L. Cottingham.

                 Statements Against S. 65 and H.R. 65 *
---------------------------------------------------------------------------
    * The information and attachments referred to have been retained in 
Committee files.
---------------------------------------------------------------------------
    Jack Heidel, Tennessee.

                                  <all>

</pre></body></html>
